1a
IN THE SUPREME COURT OF
THE STATE OF IDAHO
GEORGE Q.RICKS
Plaintiff-Appellant

Order Denying Petition for Review

vs.
STATE OF IDAHO CONTRACTORS BOARD, IDAHO
BOARD OF OCCUPATIONAL LICENSES, LAWRENCE G. WASDEN, ATTORNEY GENERAL

Docket No. 45396-2107
Kootenai County District Court
CV-2016-5927

Defendants-Respondents,
The Appellant having filed a Petition for Review on
December 24, 2018, and a supporting brief on January
29, 2019, seeking review of the Published Opinion of
the Court of Appeals released December 03, 2018;
therefore, after due consideration,
IT IS HEREBY ORDERED that Appellant’s Petition
for Review be, and hereby is, denied.
Dated March 12, 2019.

By Order of the Supreme Court

/s/ ___________________
Karel A. Lehrman
Clerk of the Court

2a
IN THE COURT OF APPEALS OF
THE STATE OF IDAHO
Docket No. 45396
GEORGE Q. RICKS,
Plaintiff-Appellant,
v.
STATE OF IDAHO
CONTRACTORS BOARD,
IDAHO BOARD OF
OCCUPATIONAL
LICENSES, LAWRENCE
G. WASDEN, ATTORNEY
GENERAL,

Filed: December 3,
2018
Karel A. Lehrman,
Clerk

Defendants-Respondents.
Appeal from the District Court of the First Judicial
District, State of Idaho, Kootenai County. Hon. Lansing L. Haynes, District Judge.
Judgment, affirmed.
George Q. Ricks, Rathdrum, pro se appellant.
Hon. Lawrence G. Wasden, Attorney General; Leslie
M. Hayes, Deputy Attorney General, Boise, for respondent.
________________________________________________
HUSKEY, Judge
George Q. Ricks appeals from the district court’s
judgment dismissing his complaint. He argues the district court erred in dismissing his claims as a matter
of law. The district court’s judgment is affirmed.
I.

3a
FACTUAL AND PROCEDURAL BACKGROUND
As alleged in Ricks’ complaint, in 2014, Ricks filed
an application for individual contractor registration
with the Idaho Bureau of Occupational Licenses
(IBOL). The application required Ricks to provide various pieces of information, including his social security
number. Ricks did not provide his social security number on his application because of his religious belief
that social security numbers are “a form of the mark,
and in substance (essence) the number of the 2-horned
beast written of in the Holy Bible.” A few days after
Ricks filed his application, IBOL requested his social
security number in order to process his application. Instead of providing his social security number, Ricks
sent IBOL an affidavit describing his religious objection. A month later, Ricks received notice from IBOL
that his application for contractor registration was denied because he failed to provide his social security
number.
It is not clear what actions Ricks took after his application was denied because the record on appeal does
not contain any documents that detail the extent, if
any, of administrative review Ricks initiated after his
application was denied. However, Ricks’ complaint
and appellate brief allege he filed a petition for review,
received a “Certificate of Agency Record on Appeal,”
and an attorney for the State of Idaho Contractor’s
Board (ICB) filed a motion to dismiss Ricks’ petition.
None of these documents are included in the appellate
record. Almost two years after this alleged administrative action, Ricks filed a complaint with the district
court listing ICB, IBOL, and Lawrence Wasden, the
Idaho Attorney General, as defendants. Because Ricks

4a
failed to sign the complaint, he filed an amended complaint with his signature. The amended complaint
claimed that 42 United States Code § 666(a)(13), Idaho
Code § 73-122, and I.C. § 545210 violated: his right to
contract; his right to the free exercise of his religion
under the Idaho Constitution, Article 1, Section 4; his
statutory religious freedom rights granted by the federal Religious Freedom Restoration Act (RFRA) and
Idaho’s Free Exercise of Religion Protected Act
(FERPA); his right to equal protection; a violation of
the Privacy Act of 1974; and a violation of separation
of powers. The complaint also contained a claim that
I.C. § 54-5210, the statute requiring contractors to provide their social security numbers on license applications is unconstitutionally vague and, therefore, is
void.
The State filed a motion to dismiss the amended
complaint under Idaho Rule of Civil Procedure
12(b)(6), arguing that 42 U.S.C. § 666(a)(13), the federal statute that offers a grant to states that collect
professional licensees’ social security numbers in order
to more effectively enforce child support orders,
preempted Ricks’ religious objection under Idaho law.
The district court granted the State’s motion1 and dismissed Ricks’ free exercise claim under the Idaho Constitution and his claim under FERPA.2 The State then
Neither a transcript of the hearing nor the order granting the
State’s motion to dismiss are contained in the record.
1

It is unclear from the record whether the district court dismissed other claims from Ricks’ complaint during this hearing or
in the district court’s related order, specifically Ricks’ right to contract, Privacy Act of 1974, separation of powers, Idaho Code § 545210 is void for vagueness, and equal protection claims. If these
claims were not dismissed at this point in the proceedings, they
were likely dismissed in the district court’s third memorandum
2

5a
filed a second motion to dismiss3 arguing Ricks had no
fundamental right to contract, his equal protection
was not violated, the Privacy Act of 1974 was not violated, separation of powers was not violated, and that
I.C. § 545210 was not void for vagueness. Before the
district court ruled on the State’s second motion to dismiss, the district court permitted Ricks to file a second
amended complaint, which added a free exercise claim
under the First Amendment to the United States Constitution. The State then filed a third motion to dismiss arguing Ricks’ First Amendment rights were not
violated. At a hearing on the second and third motions
to dismiss, the district court asked the State to provide
briefing on whether Ricks’ RFRA claim should also be
dismissed. At the next hearing on the motions to dismiss, the district court declined to dismiss Ricks’
RFRA claim. Almost a month later, the district court
issued a written order dismissing Ricks’ First Amendment claim. The State then filed a fourth motion to
dismiss Ricks’ RFRA claim, together with a motion for
reconsideration. 4 Ricks appealed the district court’s
written order. After the district court granted the
State’s motion for reconsideration,5 the district court
entered judgment and dismissed the remaining RFRA
claim.
decision and order granting the defendants’ motion to reconsider,
as shown below. In any event, the district court’s judgment definitively dismissed all Ricks’ claims by dismissing his entire complaint.
3

The State’s second motion to dismiss is not in the record.

The State’s fourth motion to dismiss and motion for reconsideration is not in the record.
4

The order granting the State’s motion to reconsider the district
court’s written order is not in the record.
5

6a
II.
STANDARD OF REVIEW
As an appellate court, we will affirm a trial court’s
grant of an I.R.C.P. 12(b)(6) motion where the record
demonstrates that there are no genuine issues of material fact and the case can be decided as a matter of
law. Coghlan v. Beta Theta Pi Fraternity, 133 Idaho
388, 398, 987 P.2d 300, 310 (1999). When reviewing an
order of the district court dismissing a case pursuant
to Rule 12(b)(6), the nonmoving party is entitled to
have all inferences from the record and pleadings
viewed in its favor, and only then may the question be
asked whether a claim for relief has been stated. Coghlan, 133 Idaho at 398, 987 P.2d at 310. The issue is not
whether the plaintiff will ultimately prevail, but
whether the party is entitled to offer evidence to support the claims. Orthman v. Idaho Power Co., 126
Idaho 960, 962, 895 P.2d 561, 563 (1995).
The interpretation of a statute is an issue of law
over which we exercise free review. Aguilar v.
Coonrod, 151 Idaho 642, 649-50, 262 P.3d 671, 678-79
(2011). Such interpretation must begin with the literal
words of the statute; those words must be given their
plain, usual, and ordinary meaning; and the statute
must be construed as a whole. Verska v. Saint Alphonsus Reg’l Med. Ctr., 151 Idaho 889, 893, 265 P.3d 502,
506 (2011). It is well established that where statutory
language is unambiguous, legislative history and
other extrinsic evidence should not be consulted for
the purpose of altering the clearly expressed intent of
the legislature. Id. Only where a statute is capable of
more than one conflicting construction is it said to be
ambiguous and invoke the rules of statutory construction. L & W Supply Corp. v. Chartrand Family Trust,

7a
136 Idaho 738, 743, 40 P.3d 96, 101 (2002). If it is necessary for this Court to interpret a statute because an
ambiguity exists, then this Court will attempt to ascertain legislative intent and, in construing the statute, may examine the language used, the reasonableness of the proposed interpretations, and the policy behind the statute. Kelso & Irwin, P.A. v. State Ins.
Fund, 134 Idaho 130, 134, 997 P.2d 591, 595 (2000).
Where the language of a statute is ambiguous, constructions that lead to absurd or unreasonably harsh
results are disfavored. See Jasso v. Camas Cnty., 151
Idaho 790, 798, 264 P.3d 897, 905 (2011).
III.
ANALYSIS
Ricks argues the district court erred by granting
the State’s motions to dismiss. Ricks argues the merits
of several of the claims made in his complaint, namely:
(1) 42 U.S.C. § 666(a)(13), I.C. § 73-122, and I.C. § 545210 violate Ricks’ free exercise of religion as protected by FERPA, RFRA, and the United States and
Idaho Constitutions; and (2) the statutes also violate
Ricks’ inalienable right to contract granted by the
United States and Idaho Constitutions and amount to
a violation of due process and an illegitimate exercise
of state and federal police power.6
Before reaching these arguments, we address the
matter of administrative exhaustion. Although nei-

Although the State argues against perceived equal protection
violations and unconstitutionality in its brief, likely because
these arguments were raised below, the Court does not interpret
Ricks’ brief to contain such arguments. Thus, the Court does not
address them here.
6

8a
ther party raised the issue of administrative exhaustion on appeal, this Court may raise it sua sponte.
“[T]he exhaustion doctrine implicates subject matter
jurisdiction because a district court does not acquire
subject matter jurisdiction until all the administrative
remedies have been exhausted.” Fuchs v. State, Dep’t
of Idaho State Police, Bureau of Alcohol Beverage Control, 152 Idaho 626, 629, 272 P.3d 1257, 1260 (2012)
(quotations omitted).
“As a general rule, a party must exhaust administrative remedies before resorting to the courts to challenge the validity of administrative acts.” Lochsa
Falls, L.L.C. v. State, 147 Idaho 232, 237, 207 P.3d
963, 968 (2009) (quotations omitted). Parties are subject to the administrative remedies set out in the Idaho
Administrative Procedures Act (IDAPA) if “the issue
at hand arose from a ‘contested case.’” Lochsa Falls,
147 Idaho at 237, 207 P.3d at 968 (quoting I.C. § 675240). The Idaho Supreme Court has recognized two
exceptions to this exhaustion requirement: “(a) when
the interests of justice so require, and (b) when the
agency acted outside its authority.” Lochsa Falls, 147
Idaho at 237, 207 P.3d at 968. Additionally, “failure to
exhaust administrative remedies is not a bar to litigation when there are no remedies to exhaust.” Id. at
239-40, 207 P.3d at 970-71. See also I.C. § 67-5271(2).
The issues Ricks brings before this Court are subject to IDAPA’s administrative exhaustion requirement. Idaho Code § 54-5210(3) specifically notes that
“an application for registration that has been denied
by the board shall be considered a contested case as
provided for in [IDAPA] and shall be subject to the provisions of [IDAPA] as well as the administrative rules
adopted by the board governing contested cases.”

9a
Thus, under IDAPA, Ricks was required to seek relief
through an administrative hearing. I.C. §§ 67-52405255. Only after receiving a final order from IBOL,
does IDAPA permit Ricks to file a petition for judicial
review with the district court, which must be done
within twenty-eight days of the issuance of the final
order. I.C. §§ 67-5270-5279.
Ricks does not argue that any of the exceptions to
this exhaustion requirement apply to his case, thus we
decline to consider any exceptions. It appears that
Ricks sought some measure of administrative review
of IBOL’s decision denying his contractor’s license application, although the record does not demonstrate
what, if any, administrative review occurred. Thus, it
is unclear whether Ricks has shown that he exhausted
all administrative remedies available to him prior to
seeking judicial review.
This subject matter bar applies not only to the review of IBOL’s denial of Ricks’ contractor’s license application, but also to the review of his claims that the
denial violates his constitutional rights under the
United States and Idaho Constitutions. Even constitutional issues arising from an administrative action
must “be exhausted before a district court has jurisdiction to decide constitutional issues,” unless an exception to exhaustion applies.7 Lochsa Falls, 147 Idaho at
We note another exception to the administrative exhaustion
rule: “where an agency is charged with implementing a statute,
declaratory judgment in the district court is permissible to determine the applicability of agency rules. I.C. § 67-5278. This is so
regardless of the availability of agency remedies.” Doe v. State,
158 Idaho 778, 782, 352 P.3d 500, 504 (2015). Because Ricks did
not seek a declaratory judgment in the district court, this exception does not apply here
7

10a
240, 207 P.3d at 971. It is unclear if Ricks exhausted
the appropriate administrative procedures; failure to
do so would deprive this Court of subject matter jurisdiction. To the extent this Court has jurisdiction,
Ricks’ claim fails on the merits.
A. Statutes at Issue
We begin our analysis with a description of the
statutes at issue in this case. Congress passed the Personal Responsibility and Work Opportunity Reconciliation Act of 1996. The Act, a cooperative endeavor with
the states, 8 aimed, among other things, to improve
child support enforcement effectiveness by collecting
information from the states for the Federal Parent
Locator Service, a database established to track down
parents with child support obligations. See Lewis v.
State, Dep’t of Transp., 143 Idaho 418, 422-23, 146
P.3d 684, 688-89 (Ct. App. 2006). As an exercise of
Congress’s spending authority, the Act offered grants
to states in exchange for compliance with the Act. One
requirement of the Act is that states collect the social
security number of any applicant for a professional license. 42 U.S.C. § 666(a)(13).
The Idaho Legislature chose to participate in the
cooperative endeavor in 1998 by passing I.C. § 73-122
to bring Idaho into compliance with 42 U.S.C. §
666(a)(13), although Idaho already requested social security numbers on professional license applications.
H.B. 431, 54th Leg., 2nd Reg. Sess. (Idaho 1998)

See Idaho Dep’t of Health & Welfare v. McCormick, 153 Idaho
468, 471, 283 P.3d 785, 788 (2012) (detailing the system by which
states enact legislation and rules in compliance with a federal
statute in order to accept federal grant money).
8

11a
(Statement of Purpose/Fiscal Note). Idaho Code § 73122 states:
(1) The social security number of an applicant
shall be recorded on any application for a
professional, occupational or recreational license.
(2) The requirement that an applicant provide a
social security number shall apply only to
applicants who have been assigned a social
security number.
(3) An applicant who has not been assigned a
social security number shall:
(a) Present written verification from the
social security administration that
the applicant has not been assigned a
social security number; and
(b) Submit a birth certificate, passport or
other documentary evidence issued by
an entity other than a state or the
United States; and
(c) Submit such proof as the department
may require that the applicant is lawfully present in the United States.
In 2005, the Idaho Legislature passed the Idaho
Contractor Registration Act because “[t]he state of
Idaho has no way of stopping unscrupulous or dishonest building contractors from continuing to practice in
this state. There is nothing in current law that would
prohibit a contractor--even if known to be a ‘bad actor’-from acting as a building contractor.” H.B. 163, 58th
Leg., 1st Reg. Sess. (Idaho 2005) (Statement of Purpose). One section of the Act requires “[a]n applicant

12a
for registration as a contractor [to] submit an application under oath upon a form to be prescribed by the
board and which shall include the following information pertaining to the applicant:. . . . Social security
number.” I.C. § 54-5210. ICB and IBOL administer
both I.C. § 54-5210 and I.C. § 73-122 by requiring social security numbers to be listed on a contractor’s application for licensure. I.C. § 54-5207.
B. Ricks’ Free Exercise Rights
Ricks’ argument that requiring him to provide his
social security number on his contractor’s license application amounts to a violation of his free exercise of
religion is based in four separate sources of law: the
First Amendment to the United States Constitution;
Article 1, Section 4 of the Idaho Constitution; RFRA;
and FERPA. Each operates independently of one another. We address each of these in turn below.
1. The federal RFRA preempts any claims
Ricks may have under Idaho’s FERPA
Ricks argues that this Court should proceed to the
merits of his FERPA argument and consider FERPA’s
multi-part test, despite the State’s argument that
FERPA, in its entirety, is preempted by 42 U.S.C. §
666(a)(13). We first address the State’s preemption argument.
In 2000, in reaction to the United States Supreme
Court’s decision in City of Boerne v. Flores, which held
Congress had exceeded its authority by extending
RFRA to the states, 521 U.S. 507, 536 (1997), the
Idaho Legislature passed its own version of RFRA-FERPA--to maintain statutory religious liberty protections for Idaho citizens, I.C. §§ 73-401-404. FERPA applies to all state laws and local ordinances unless a

13a
state law or local ordinance explicitly states otherwise.
I.C. § 73-403. FERPA provides a wider scope of protection for religious liberty than RFRA, “adopting a much
broader definition of ‘substantially burdens,’” as well
as codifying the phrase “exercise of religion” to mean
“the ability to act or refusal to act in a manner substantially motivated by a religious belief, whether or
not the exercise is compulsory or central to a larger
system of religious belief.” State v. White, 152 Idaho
361, 364 n.2, 364, 271 P.3d 1217, 1220 n.2, 1220 (Ct.
App. 2011). FERPA states that “‘Substantially burden’
means to inhibit or curtail religiously motivated practices,” I.C. § 73-401, and that “the term ‘substantially
burden’ is intended solely to ensure that [FERPA] is
not triggered by trivial, technical or de minimis infractions,” I.C. § 73-402(5). Otherwise, FERPA’s operative
provisions are virtually identical to RFRA:
(2) Except as provided in subsection (3) of this
section, government shall not substantially
burden a person’s exercise of religion even if
the burden results from a rule of general applicability.
(3) Government may substantially burden a
person’s exercise of religion only if it demonstrates that application of the burden to the
person is both:
(a) Essential to further a compelling governmental interest;
(b) The least restrictive means of furthering
that compelling governmental interest.
I.C. § 73-402.
In Lewis, this Court reviewed a similar FERPA
claim. Lewis attempted to renew his driver’s license,

14a
but refused to provide his social security number on
the renewal application because he considered the
number to be “the precursor to, or actually is, the biblical ‘mark of the beast.’” Lewis, 143 Idaho at 420, 146
P.3d at 686. After the Idaho Department of Transportation suspended the applicant’s license, denied his renewal application, and upheld those actions upon administrative review, the applicant appealed to the district court. Id. Lewis argued, among other things, that
under FERPA he should receive an exemption from
I.C. § 49-306, the statute requiring him to provide his
social security number on his renewal application.
Lewis, 143 Idaho at 422, 146 P.3d at 688. Like I.C. §
73-122, I.C. § 49-306 was enacted to comply with 42
U.S.C. § 666(a)(13). Lewis, 143 Idaho at 423, 146 P.3d
at 689; H.B. 431, 54th Leg., 2nd Reg. Sess. (Idaho
1998) (Statement of Purpose).
This Court did not reach the merits of the applicant’s FERPA argument, instead holding FERPA was
preempted by 42 U.S.C. § 666(a)(13). Lewis, 143 Idaho
at 423, 146 P.3d at 689. The Court explained that giving the applicant a religious exemption from I.C. § 49306 through FERPA would cause FERPA to conflict
with 42 U.S.C. § 666(a)(13) because 42 U.S.C.
§ 666(a)(13) requires uniform compliance. Lewis, 143
Idaho at 423, 146 P.3d at 689. In other words, FERPA
would cause the Idaho statute to operate with exceptions while the federal statute required the Idaho statute to operate without exceptions. The Court reasoned
that this conflict must be resolved by the Supremacy
Clause of the United States Constitution, which dictates that the laws of the United States “shall be the
supreme Law of the Land; . . . any Thing in the Constitution or Laws of any state to the Contrary notwithstanding.” Lewis, 143 Idaho at 422, 146 P.3d at 688

15a
(quoting U.S. CONST. art. VI, cl. 2). Thus, in order to
ensure I.C. § 49-306 did not conflict with 42 U.S.C. §
666(a)(13), the Court did not apply FERPA to I.C. § 49306 and declined to address the merits of the applicant’s FERPA argument. Lewis, 143 Idaho at 425, 146
P.3d at 691.
Lewis bears obvious resemblance with Ricks’ case.
The only relevant difference between the two is the
type of license at issue. However, because the Lewis
Court did not identify why FERPA was directly contrary to 42 U.S.C. § 666(a)(13), this Court proceeds to
clarify the preemption analysis employed in Lewis.
“In determining whether state law is preempted,
we begin with a presumption of no preemption.” Idaho
Dept. of Health & Welfare v. McCormick, 153 Idaho
468, 471, 283 P.3d 785, 788 (2012). Federal law may
preempt state law in two ways: (1) field preemption,
where Congress has exhibited an intent to occupy a
given field of law; and (2) conflicting laws, where Congress has not occupied a given field of law, but a state
law conflicts with a federal law. Lewis, 143 Idaho at
422, 146 P.3d at 688. In the case of field preemption,
any law a state passes in a federally-occupied area of
law is preempted in its entirety. Id. For conflicting
laws, a state law is preempted only to the extent it conflicts with federal law. Id.; McCormick, 153 Idaho at
471, 283 P.3d at 788.
Here, it cannot be said that Congress has occupied
the field of child support enforcement, especially since
42 U.S.C. § 666(a)(13) invites states to engage in a cooperative endeavor with the federal government in
this area. See McCormick, 153 Idaho at 471, 283 P.3d
at 788 (“The cooperative nature of the Medicaid program shows that Congress did not intend to occupy the

16a
entire Medicaid field, as the federal Medicaid statute
calls for participating states to adopt their own legislation and regulations.”). Thus, the Court must examine FERPA to see if it conflicts with 42 U.S.C. §
666(a)(13).9 In order to determine whether a state law
conflicts with a federal law:
this Court must determine that the law “stands
as an obstacle to the accomplishment and execution of the full purposes and objectives of Congress.” Essentially, this Court must find that a
state law is directly contrary to the congressional intent behind a federal statute before
state law will be preempted.
McCormick, 153 Idaho at 471, 283 P.3d at 788 (quoting
Christian v. Mason, 148 Idaho 149, 152, 219 P.3d 473,
476 (2009)). In doing so, the Court interprets 42 U.S.C.
§ 666(a)(13) in light of the Personal Responsibility and
Work Opportunity Reconciliation Act of 1996’s overall
purpose and follow well-established guidance concerning statutory interpretation:
The objective of statutory interpretation is to
derive the intent of the legislative body that
adopted the act. Statutory interpretation begins
with the literal language of the statute. Provisions should not be read in isolation, but must

We clarify that we are not examining whether Idaho Code § 73122 or I.C. § 54-5210 conflict with 42 U.S.C. § 666(a)(13). Indeed,
both those statutes advance the directive of 42 U.S.C. § 666(a)(13)
in collecting social security numbers on professional license applications. Rather, the question here is whether FERPA, as an
Idaho statute that grants exemptions from other Idaho statutes,
conflicts with 42 U.S.C. § 666(a)(13) by granting an exemption
from its Idaho counterparts, I.C. § 73-122 or I.C. § 54-5210.
9

17a
be interpreted in the context of the entire document. The statute should be considered as a
whole, and words should be given their plain,
usual, and ordinary meanings. It should be
noted that the Court must give effect to all the
words and provisions of the statute so that none
will be void, superfluous, or redundant. When
the statutory language is unambiguous, the
clearly expressed intent of the legislative body
must be given effect, and the Court need not
consider rules of statutory construction.
McCormick, 153 Idaho at 472, 283 P.3d at 789 (quoting
State v. Schulz, 151 Idaho 863, 866, 264 P.3d 970, 973
(2011)).
We first turn to the literal language of 42 U.S.C.
§ 666(a)(13). That provision states that “each State
must have in effect laws requiring the use of the following procedures,” including “[p]rocedures requiring
that the social security number of . . . any applicant for
a professional license, . . . occupational license . . . ” 42
U.S.C. § 666(a)(13). Additionally, 42 U.S.C. §
666(a)(13) provides that “if a State allows the use of a
number other than the social security number to be
used on the face of the document while the social security number is kept on file at the agency, the State
shall so advise any applicants.” This Court has interpreted this provision to mean that:
at the state’s discretion, the applicant’s social
security number need not be recorded on the licensing document, but still must be recorded in
a department file. The provision does not affect
the requirement of recording the applicant’s so-

18a
cial security number on the application or indicate the applicant cannot be required to provide
the number to the department.
Lewis, 143 Idaho at 423 n.4, 146 P.3d at 689 n.4.
The plain text of FERPA, I.C. §73-402, does not directly conflict with the plain text of 42 U.S.C. §
666(a)(13). FERPA’s text does not impose any conflicting duties or prohibitions concerning professional licensure or the reporting of social security numbers.
Thus, we turn to the purposes and objectives of the two
statutes and the intent of the legislative bodies behind
them.
Ultimately,
§ 666(a)(13):

Congress

passed

42 U.S.C.

For the purpose of enforcing the support obligations owed by noncustodial parents to their
children and the spouse (or former spouse) with
whom such children are living, locating noncustodial parents, establishing paternity, obtaining child and spousal support, and assuring
that assistance in obtaining support will be
available under this part to all children . . . for
whom such assistance is requested.
42 U.S.C. § 651; see also 42 U.S.C. § 654(20) (a state
“shall have in effect all of the laws to improve child
support enforcement effectiveness”). This statement of
purpose responds to Congress’s finding that in “1992,
only 54 percent of single-parent families with children
had a child support order established and, of that 54
percent, only about one-half received the full amount
due. Of the cases enforced through the public child
support enforcement system, only 18 percent of the

19a
caseload has a collection.” H.R. 3734, 104th Cong. §
101(4) (1996).
Concerning FERPA, the Idaho Legislature set forth
its rationale for adopting the statute in 2000:
The purpose of this legislation is to reestablish a test which courts must use to determine
whether a person’s religious belief should be accommodated when a government action or regulation restricts his or her religious practice.
The test, known as the “compelling interest
test,” requires the government to prove with evidence that its regulation is (1) essential to
achieve a compelling governmental interest and
(2) it is the least restrictive means of achieving
the government’s compelling interest.
Prior to 1990 the U.S. Supreme Court used
the above test—the “compelling test”—when deciding religious claims. However, in a 1990 decision (Employment Div. of Oregon v. Smith
[494 U.S. 872 (1990)]) the Court tipped the
scales of justice in favor of government regulation by throwing out the compelling interest
test, which had shielded our religious freedom
from onerous government regulation for more
than 30 years. The Smith decision reduced the
standard of review in religious freedom cases to
a “reasonableness standard.” While all other
fundamental rights (freedom of speech, press,
assembly, etc.) remain protected by the stringent “compelling interest test,” the Court singled out religious freedom by reducing its protection to the weak “reasonableness test.”

20a
A widely recognized principle of law is that
states are free to protect an individual’s right
with a much higher standard than the U.S. Constitution itself affords. Thus, in light of this
principle in conjunction with the [City of
Boerne, 521 U.S. 507] decision, states are free to
enact their own RFRA’s thereby choosing to apply the higher “compelling interest test” standard in their own religious freedoms cases.
S.B. 1394, 55th Leg., 2nd Reg. Sess. (Idaho 2000)
(Statement of Purpose).
The stated purposes and objectives behind 42
U.S.C. § 666(a)(13) and FERPA do not necessarily present a direct conflict. However, the operation of
FERPA, in the context of the cooperative endeavor between Congress and the Idaho Legislature, does impede 42 U.S.C. § 666(a)(13)’s objective of improving
child support enforcement effectiveness by exempting
individuals from I.C. § 73-122’s and I.C. § 54-5210’s
requirement of providing social security numbers on
professional license applications. In other words, an
exemption granted by FERPA would make it more difficult to locate a parent who may have outstanding
child support obligations through the Federal Parent
Locator Service database. Because this amounts to a
direct conflict with Congress’s intent in passing 42
U.S.C. § 666(a)(13), 42 U.S.C. § 666(a)(13) preempts
FERPA in this context. Thus, the district court did not
err in dismissing Ricks’ FERPA claim.10

Even if the Court were to address the merits of Ricks’ FERPA
claim, it would fail. The parties do not contest that Ricks’ refusal
to provide his social security number on his contractor’s license
application is motivated by a sincerely-held religious belief. But
10

21a
whether the conditioning of government benefits, like licensure,
upon the provision of a social security number is a substantial
burden upon the free exercise of religion is a question on which
other courts have split. See Leahy v. D.C., 833 F.2d 1046, 1048
(D.C. Cir. 1987) (assuming a requirement that a social security
number be obtained and disclosed in order to receive a driver’s
license is a substantial burden for a “mark of the beast” believer);
Callahan v. Woods, 736 F.2d 1269, 1273 (9th Cir. 1984) (holding
a requirement that a social security number be obtained and disclosed in order to receive welfare is a substantial burden for a
“mark of the beast” believer); In re Turner, 193 B.R. 548, 555
(Bankr. N.D. Cal. 1996) (holding a requirement that a bankruptcy
petition preparer provide his social security number on others’
bankruptcy petitions was not a substantial burden for a “mark of
the beast” believer). See also Thomas v. Review Bd., 450 U.S. 707,
717-18 (1981) (“Where the State conditions receipt of an important benefit upon conduct proscribed by a religious faith, or
where it denies such a benefit because of conduct mandated by
religious belief . . . a burden upon religion exists. While the compulsion may be indirect, the infringement upon free exercise is
nonetheless substantial.”); Callahan, 736 F.2d at 1273 (same);
Miller v. Comm’r, 114 T.C. 511, 516 (2000) (compiling substantial
burden cases). However, even assuming without deciding that
denying Ricks’ application for a contractor’s license substantially
burdens his religious exercise, Ricks’ FERPA claim fails because
I.C. § 73-122 and I.C. § 54-5210 are supported by compelling government interests (to conform to 42 U.S.C. § 666(a)(13) to improve
child support enforcement effectiveness and to ensure the quality
of contractors in Idaho), and requiring a social security number
on Ricks’ license application is the least restrictive means of accomplishing those interests. Indeed, it is hard to imagine another
uniformly used method of identification other than a social security number that is consistent across state lines; does not change
when an individual obtains a new housing arrangement, a new
name, or new employment; and is possessed by all individuals
that could be used to locate Ricks in the event he has outstanding
child support obligations. Thus, assuming for purposes of argument that Ricks’ religious exercise is substantially burdened by
the social security number requirement, the requirement does not
violate his statutory free exercise rights under FERPA.

22a
2. RFRA is inapplicable to this case because Ricks does not list any federal defendants
In response to the standard for interpreting the
First Amendment announced by the United States Supreme Court in Smith, Congress passed RFRA, essentially restoring and codifying the Court’s First Amendment jurisprudence predating Smith. 42 U.S.C. §
2000bb. RFRA applies to all federal law unless a federal law explicitly states otherwise. 42 U.S.C. §
2000bb-3 (declared unconstitutional as applied to the
states in City of Boerne, 521 U.S. 507).
It provides individuals with a claim or defense that
they should be exempt from federal laws that burden
their exercise of religion. However, such exemptions
are only granted if courts determine the individuals
pass RFRA’s multi-part test:
(a) In general
Government shall not substantially burden a
person’s exercise of religion even if the burden
results from a rule of general applicability, except as provided in subsection (b).
(b) Exception
Government may substantially burden a person’s exercise of religion only if it demonstrates
that application of the burden to the person—
(1) is in furtherance of a compelling governmental interest; and
(2) is the least restrictive means of furthering that compelling governmental interest.
42 U.S.C. § 2000bb-1.

23a
In order to assert a RFRA claim or defense, an individual’s lawsuit must include federal government
defendants, defined under the statute to include “a
branch, department, agency, instrumentality, and official (or other person acting under color of law) of the
United States.” 42 U.S.C. § 2000bb-2. Here, Ricks’
complaint does not list any federal government defendant charged with administering 42 U.S.C. §
666(a)(13). As such, he cannot validly raise a RFRA
claim, and the district court did not err in dismissing
the claim.
3. Ricks’ First Amendment rights are not
violated by requiring him to list his social security number on a building contractor application
The First Amendment to the United States Constitution provides that “Congress shall make no law respecting an establishment of religion, or prohibiting
the free exercise thereof.” U.S. CONST. amend. I. Generally applicable and neutral laws that incidentally
burden the exercise of an individual’s religion do not
offend the First Amendment. See Employment Div.,
Dep’t of Human Res. of Oregon v. Smith, 494 U.S. 872
(1990), superseded by statute, Religious Freedom Restoration Act of 1993, Pub. L. No. 103-141, 107 Stat.
1488, as recognized in Holt v. Hobbs, ___ U.S. ___, 135
S. Ct. 853 (2015). 11 Thus, generally applicable and
Westlaw flags Employment Div. of Oregon v. Smith, 494 U.S.
872 (1990), as superseded by statute, but that designation does
not reflect Smith’s continuing validity as controlling law.
Westlaw points a reader of Smith to the United States Supreme
Court’s decision in Holt v. Hobbs, ___ U.S. ___, 135 S. Ct. 853
(2015). The Court in Holt explains that Smith repudiated previous Free Exercise Clause analysis under the First Amendment to
11

24a
neutral laws burdening the free exercise of religion
face only rational basis review. Id.; see also Miller v.
Reed, 176 F.3d 1202, 1206 (9th Cir. 1999). However,
laws that selectively target religious exercise merit
strict scrutiny review and will only survive scrutiny in
rare cases. Church of the Lukumi Babalu Aye, Inc. v.
City of Hialeah, 508 U.S. 520, 546 (1993).
Here, Ricks has presented no evidence that 42
U.S.C. § 666(a)(13), I.C. § 73-122, or I.C. § 54-5210 are
not generally applicable or neutral laws or that they
were passed with the object to target his religious exercise. Section 666(a)(13)’s requirement of providing a
social security number on all professional license applications is generally applicable to all professionals
within states that have voluntarily assumed 42 U.S.C.
§ 666(a)(13)’s statutory obligations. The statute does
not single out a class of religious people who, as an element of the exercise of their religion, object to the use
of a social security number. Additionally, 42 U.S.C.
§ 666(a)(13)’s purpose--to improve child support enforcement effectiveness--is religiously neutral. The
same can be said for I.C. § 73-122 and I.C. § 54-5210.

the United States Constitution, but that Congress’s response to
Smith was to pass RFRA, a statute protecting religious exercise
by employing the Free Exercise Clause analysis the Court had
just repudiated. Holt, ___ U.S. at ___, 135 S. Ct. at 859-60. Congress’s passage of RFRA thus added another federal avenue of relief for parties whose free exercise of religion has been burdened.
Parties may elect to seek relief through either: (1) the First
Amendment, which does not protect against incidental burdens
incurred by generally applicable and neutral laws as set forth in
Smith; and (2) RFRA, which may protect against incidental burdens incurred by generally applicable and neutral laws, as long
as RFRA’s multi-prong test is met.

25a
Both statutes apply generally to require all professionals, including contractors, to list their social security
numbers on license applications. Neither single out a
class of religious objectors. Rather, the purposes of I.C.
§ 73-122 (to conform to 42 U.S.C. § 666(a)(13) and improve child support enforcement effectiveness) and
I.C. § 54-5210 (to ensure the quality of contractors in
Idaho) are religiously neutral. As such, we evaluate all
three statutes under rational basis review. We conclude the purposes behind these statutes show Congress and the Idaho Legislature possessed rational bases in their enactment. Thus, even if the statutes burden the free exercise of Ricks’ religion, that burden
does not amount to a violation of Ricks’ First Amendment rights. Therefore, the district court did not err in
dismissing this claim.
4. Article I, Section 4 of the Idaho Constitution is not violated by the incidental
burden of using a social security number on a building contractor application
Article 1, Section 4 of the Idaho Constitution provides similar protections to the First Amendment of
the United States Constitution. It reads:
The exercise and enjoyment of religious faith
and worship shall forever be guaranteed; and no
person shall be denied any civil or political
right, privilege, or capacity on account of his religious opinions . . . No person shall be required
to attend or support any ministry or place of
worship, religious sect or denomination, or pay
tithes against his consent; nor shall any preference be given by law to any religious denomination or mode of worship.

26a
Idaho Const. art. I, § 4. This guarantee of religious liberty has been interpreted to provide more protection
than the First Amendment of the United States Constitution. Osteraas v. Osteraas, 124 Idaho 350, 355,
859 P.2d 948, 953 (1993). This is so because “religious
opinion” is “a broad term that would seem to include
not only traditional religious beliefs but also one’s
opinions as to religion in general.” Id. However, like
the First Amendment, this provision does not protect
against conduct that violates a neutral statute of general applicability simply because such conduct may be
engaged in for religious reasons. State v. Fluewelling,
150 Idaho 576, 579, 249 P.3d 375, 378 (2011). As expressed above, 42 U.S.C. § 666(a)(13), I.C. § 73-122,
and I.C. § 54-5210 are all generally applicable and
neutral laws justified by rational purposes, and as
such, the incidental burden they impose on Ricks’ free
exercise of his religion does not amount to a violation
of Article 1, Section 4 of the Idaho Constitution. Therefore, the district court did not err in dismissing this
claim.
C. Ricks’ Contract Rights Are Not Violated
Ricks argues that conditioning licensure upon the
provision of a social security number violates his right
to contract. “[T]he right to make contracts is embraced
in the conception of liberty as guaranteed by the [Fourteenth Amendment to the] Constitution.” Chicago, B.
& Q.R. Co. v. McGuire, 219 U.S. 549, 566 (1911). However, “that freedom of contract is a qualified, and not
an absolute, right. There is no absolute freedom to do
as one wills or to contract as one chooses.” Id. at 567.
“Equally fundamental with the private right [to contract] is that of the public to regulate it in the common

27a
interest.” Nebbia v. People of New York, 291 U.S. 502,
523 (1934).
Idaho Code § 73-122 and I.C. § 54-5210 serve a purpose in the common interest. By bringing Idaho law
into compliance with 42 U.S.C. § 666(a)(13), I.C. § 73122 aids Congress’s objective to improve child support
enforcement effectiveness. In passing I.C. § 54-5210,
the Idaho Legislature declared, “it is in the public interest to provide a mechanism to remove from practice
incompetent, dishonest, or unprincipled practitioners
of construction. To aid in fulfilling these purposes, this
chapter provides for the registration of construction
contracts within the state of Idaho.” I.C. § 54-5202.
The purposes behind these two statutes motivate legitimate exercises of police power.
The requirement that a social security number be
listed on an application for an Idaho contractor license
does qualify Ricks’ right to contract. But because that
requirement pursues legitimate state objectives, it
does not violate Ricks’ contract rights, nor does it
amount to a due process violation. Thus, the district
court did not err in dismissing Ricks’ contract rights
claim.
Relatedly, Ricks argues that 42 U.S.C. § 666(a)(16)
does not grant Idaho the ability to limit his contract
rights by denying him a contractor’s license for failure
to provide a social security number. He contends 42
U.S.C. § 666(a)(16) only permits Idaho to deny a license to individuals with “overdue [child] support or
[who have] fail[ed], after receiving appropriate notice,
to comply with subpoenas or warrants relating to paternity or child support proceedings.” Ricks raises this
argument for the first time on appeal. Issues not
raised below may not be considered for the first time

28a
on appeal, thus we do not address Ricks’ new argument here. Sanchez v. Arave, 120 Idaho 321, 322, 815
P.2d 1061, 1062 (1991).
IV.
CONCLUSION
It is unclear whether Ricks has shown that he exhausted all administrative remedies available to him
prior to seeking judicial review. To the extent this
Court has subject matter jurisdiction to review Ricks’
appeal, the merits of his claims also fail. Ricks’ FERPA
claim is preempted by 42 U.S.C. § 666(a)(13), his
RFRA claim is not properly alleged, and neither his
claim under the First Amendment of the United States
Constitution nor Article I, Section 4 of the Idaho Constitution compel the conclusion that Ricks’ free exercise rights have been violated. Additionally, Ricks has
not shown his right to contract is violated by I.C. § 73122 or I.C. § 545210. Thus, the district court did not
err in dismissing these claims and the judgment is affirmed. Costs but not attorney fees are awarded to respondents on appeal.
Chief Judge GRATTON and Judge LORELLO
CONCUR.

29a
STATE OF IDAHO
COUNTY OF KOOTENAI
FILED
2017 AUGUST 25 PM 3:58
CLERK DISTRICT COURT
/s/_______________________
Deputy
IN THE DISTRICT COURT OF THE
FIRST JUDICIAL DISTRICT OF THE
STATE OF IDAHO
IN AND FOR THE COUNTY OF KOOTENAI
GEORGE Q. RICKS
Plaintiff,
v.
STATE BOARD OF
CONTRACTORS
IDAHO BOARD OF
OCCUPATIONAL
LICENSES
LAWRENCE WASDEN

Case No. 16-5927
MEMORANDUM
DECISION AND
ORDER GRANTING
DEFENDANT’S
MOTION TO
RECONSIDER

ATTORNEY GENERAL
Defendants,
Defendants’ Motion GRANTED
I. BACKGROUND AND PROCEDURAL HISTORY
Defendants challenge the Court’s prior ruling that
Plaintiffs Second Amended Complaint states a RFRA
claim and argues that none of the defendants are appropriate parties under RFRA because they are not
“government actors” as defined by RFRA.

30a
II. STANDARD
The district court has no discretion on whether
to entertain a motion for reconsideration . . .
On a motion for reconsideration, the court
must consider any new admissible evidence or
authority bearing on the correctness of an (2)
the term “covered entity” means the District of
Columbia, the Commonwealth of Puerto Rico,
and each territory and possession of the
United States;
42 U.S.C. § 2000bb-2.
(a) In general
Government shall not substantially burden a
person’s exercise of religion even if the burden
results from a rule of general applicability, except as provided in subsection (b) of this section.
(b) Exception
Government may substantially burden a person’s exercise of religion only if it demonstrates that application of the burden to the
person—
(1) is in furtherance of a compelling governmental interest; and
(2) is the least restrictive mean of furthering
that compelling governmental interest.
(c) Judicial relief
A person whose religious exercise has been
burdened in violation of this section may assert that violation as a claim or defense in a

31a
judicial proceeding and obtain appropriate relief against a government. Standing to assert
a claim or defense under this section shall be
governed by the general rules of standing under article III of the Constitution.
42 U.S.C. § 2000bb-1. Thus, only a branch of the federal government or a U.S. territory is a proper party
pursuant to RFRA; states are not. As a matter of law,
Defendants are not proper parties under RFRA, and
Plaintiffs RFRA cause of action against them is
therefore dismissed.
Dated Aug 23 2017 /s/______________________
District Judge Lansing Haynes
CERTIFICATE OF SERVICE
I hereby certify that on the 25 day of August, 2017, a
true and correct copy of the foregoing was mailed, postage
prepaid, faxed, or sent by interoffice mail to:
George Ricks
13825 N. Lauren Loop
Rathdrum, Idaho
83858

Leslie Hayes
P.O Box 83720
Boise, Idaho 83720-0010
Fax: (208)854-8073
By:
Susan McCoy, Deputy Clerk

32a
STATE OF IDAHO
George Q. Ricks
COUNTY OF KOOTENAI
Acting Pro Se
FILED: 2017 Aug 16
13825 N. Lauren Loop PM 4:26
Rathdrum, Idaho
CLERK DISTRICT COURT
83858
/s/_______________
208-818-9799
Deputy Clerk
IN THE DISTRICT COURT OF THE
FIRST JUDICIAL DISTRICT OF THE
STATE OF IDAHO,
IN AND FOR KOOTENAI COUNTY
CIVIL ACTION FOR VIOLATION OF CONSTITUTIONAL AND STATUTORY RIGHTS
GEORGE Q. RICKS,
Appellant,
v.
Case No. CV-2016-5927
STATE OF IDAHO
CONTRACTORS
BOARD, IDAHO
NOTICE OF APPEAL
BOARD OF OCCUPATIONAL LICENSES,
LAWRENCE WASDEN,
ATTORNEY GENERAL
Respondents.

33a
TO: STATE OF IDAHO CONTRACTORS BOARD,
IDAHO BOARD OF OCCUPATIONAL LICENSES,
LAWRENCE WASDEN, IDAHO ATTORNEY GENERAL AND THE DEFENDANTS’ ATTORNEY,
LESLIE M. HAYES, 7995#7889 DEPUTY ATTORNEY GENERAL, 954 W. JEFFERSON STREET, 2ND
FLOOR, P.O. BOX 83720, BOISE, ID. 83720-0010
AND THE CLERK OF THE DISTRICT COURT OF
THE FIRST JUDICIAL DISTRICT OF THE STATE
OF IDAHO, IN AND FOR KOOTENAI COUNTY.
NOTICE IS HEREBY GIVEN THAT:
1. George Q. Ricks appeals against the above named
respondent(s) to the Idaho Supreme Court from
Memorandum Decision and Order, Granting in
Part and Denying in Part Defendants’ Motion to
Dismiss. Entered in the above entitled action on
the 5th day of July 2017, Honorable Judge, Lansing
L. Haynes presiding. A copy of the judgment or order being appealed is attached to this notice.
2. Appellant has a right to appeal to the Idaho Supreme Court, and the judgments or orders described in paragraph 1 above are appealable orders
under and pursuant to rule 11 (a) (3) I.A.R.
3. Preliminary statement of the issues on appeal
which the appellant then intends to assert in the
appeal; provided, any such list of issues on appeal
shall not prevent the appellant from asserting
other issues on appeal.
A. Appellant contends he has stated a “hybrid”
claim that requires stricter scrutiny than the
rational basis test. Employment Div. v. Smith,
494 U.S. 872 (1990).

34a
B. Appellant contends that the requirement of a
SSN has no rational basis as to whether an individual qualifies to register as a contractor.
C. Appellant contends I.C. 73-122 is discriminatory towards those who have a religious objection over disclosing their SSN in order to register as a contractor. Bowen v. Roy, 476 U.S. 693
(1986).
D. Appellant contends 42 U.S-C. 666(a) (13)(A) is
germane only to those who seek the assistance
of an IV-D agency.
E. Appellant contends his complaint should not
have been dismissed under a rule 12(b)(6) motion.
4. No order has been entered sealing any portion of
the record.
5. No transcript is requested.
6. Under rule 28 (a) I.A.R., Appellant by the foregoing
designations requests that the clerk’s record be
limited to the following:
a. The original and any amended complaint.
b. Plaintiff’s memorandum in opposition to Defendants’ 3rd Rule 12(b)(6) motion to dismiss.
c. Notice of Appeal

35a
CERTIFICATION
I certify:
1. That the estimated fee for preparation of the clerk’s
or agency’s record has been paid.
2. That the appellate filing fee has been paid.
3. That service has been made upon all parties required to be served pursuant to Rule 20.
AFFIDAVIT
State of Idaho
County of Kootenai
George Q. Ricks being sworn, deposes and says:
That the party is the appellant in the above-entitled appeal and that all statements in this notice of
appeal are true and correct to the best of his
knowledge and belief.
Subscribed and Sworn to before me this 16th, day
of Aug. 2017.
/s/_______________________
Bobee Deglman
Notary Public

36a
STATE OF IDAHO
COUNTY OF KOOTENAI
FILED:
2017 JULY 5 PM 2:06
CLERK DISTRICT COURT
/S/_______________________
DEPUTY
IN THE DISTRICT COURT OF THE
FIRST JUDICIAL DISTRICT OF THE
STATE OF IDAHO,
IN AND FOR THE COUNTY OF KOOTENAI
GEORGE Q. RICKS,
Plaintiff,
v.

Case No. CV-16-5927

STATE OF IDAHO CONTRACTORS BOARD

MEMORANDUM DECISION AND ORDER
GRANTING IN PART
AND DENYING IN
PART DEFENDANTS’
MOTION TO DISMISS

IDAHO BOARD OF OCCUPATIONAL LICENSES
LAWRENCE WASDEN
ATTORNEY GENERAL
Defendants.

Defendants’ Motion is granted in part and denied
in part.
Plaintiff’s Second Amended Complaint first lays
out the facts and argues the Idaho Contractor Registration Act’s “requirement to provide a SSN in order
to exercise the freedom to contract violates plaintiff’s
First Amendment right to the Free Exercise of Religion (FER) clause of the U.S. Constitution.” Plaintiff

37a
then cites four U.S. Supreme Court cases, none of
which are controlling authority on that topic. Plaintiff continues:
The State of Idaho in “Lewis” admitted that
the requirement of an SSN in order to receive
a driver’s license did indeed burden Lewis’ religious beliefs under I.C.73402, but that State
law was allegedly pre-empted by federal law
(42USC666) law to require an individual’s SSN
even over a religious objection. This allegations
fails for the following reasons.
1) 42 USC 666 a 13 A applies in only certain
family matters. That being the collection and
use of SSN FOR USE IN CHILD SUPPORT
Enforcement. P.L 105-33 August 5th, 1997-111
Statute 629 Section 5536.
2) 42 USC 2000 bb l-4 applies to all federal
laws unless the particular federal law specifically states 42 USC 2000 bb l-4 does not apply.
42USC 666 is not exempt.
3) I.C. 73-122 is discriminatory as it allows for
individuals to use alternative documentation
to apply for licenses; therefore the SSN is not
the least restrictive means to further the
state’s alleged compelling interest.
Bowen v. Roy, 476 U.S. 693 (1986 at 708, and
cited and discussed in Leahy v. D.C., 833 F.2d
1046 (1987). The State of Idaho even admits to
the inequity in Federal Mandate Review dated
Jan. 19, 2005 and previously submitted to the
Court.

38a
Conclusion
I.C. 54-5210(a) violates Plaintiffs lst Amend
(FER) and does not comply with federal law
and U.S. Supreme Court’s decision concerning
the “FER”. I.C. 73-122 is discriminatory.
Plaintiff seeks relief in the forms of declaratory
judgement, and also damages under 42 USC
1981, 1983, 2000e-2(b) in connection with
I.C. 6-903(1), 6-910.
Plaintiff’s reasons are numbered in his Amended
Complaint and the Court will address them one at a
time.
l) 42 USC 666 a 13 A applies in only certain
family matters. That being the collection and
use of SSN FOR USE IN CHILD SUIPPORT
Enforcement. P.L. 105-33 August 5th, 1997111 Statute 629 Section 5536.
Plaintiff misconstrues the purpose of this law and
its applicability. 42 U.S.C. § 666(a)(13)(A)’s purpose
is to aid in child support enforcement by requiring
the collection of social security numbers on license
applications:
§ 666. Requirement of statutorily prescribed
procedures to improve effectiveness of child
support enforcement
(a) Types of procedures required
In order to satisfy section 654(20)(A) of this title, each State must have in effect laws requiring the use of the following procedures, consistent with this section and with regulations
of the Secretary, to increase the effectiveness

39a
of the program which the State administers
under this part:
...
(13) Recording of social security numbers in
certain family matters
Procedures requiring that the social security
number of
(A) any applicant for a professional license, driver’s license, occupational
license, recreational license, or marriage license be recorded on the application;
(B) any individual who is subject to a divorce decree, support order, or paternity determination or acknowledgment be placed in the records relating to the matter; and
(C) any individual who has died be
placed in the records relating to the
death and be recorded on the death
certificate.
42 U.S.C. § 666. This law applies to all applications
for occupational licenses and requires states to record
social security numbers on license applications to aid
in interstate child support collection. The Idaho Contractor Registration Act’s social security number requirement is Idaho’s compliance with this federal
mandate. The federal mandate does not apply only in
“certain family matters” despite the heading of subsection 13. It does include “certain family matters”
like marriage, divorce, and paternity determinations,

40a
but also applies to death records, and applications for
drivers’, professional, and other licenses.
2) 42 USC 2000 bb 1-4 applies to all federal
laws unless the particular federal law specifically states 42 USC 2000 bb 1-4 does not apply. 42 USC 666 is not exempt.
42 USC § 2000 is the Religious Freedom Restoration Act. Here, Plaintiff is arguing R-FRA (enacted
1994 and declared unconstitutional as applied
against the state laws in City of Boerne v. Flores, 52l
U.S. 507 (1997)) trumps the federal Child Support
Enforcement Act (42 U.S.C. § 666, enacted in 1984).
This is a statutory RFRA claim, not a Free Exercise
Clause claim.
Defendants state appears, “[it] appears, but is unclear, that Plaintiff is trying to assert that the Religious Freedom Restoration Act governs the validity of
42 U.S.C. § 666. Defendants are unable to respond to
this paragraph or assert an argument for dismissal
because there is no discernible claim asserted here.”
There is a discernible claim asserted here, as Defendant recited it. Plaintiff is correct that RFRA “applies to all Federal law, and the implementation of
that law, whether statutory or otherwise, and whether adopted before or after November 16, 1993.” 42
U.S.C. § 2000bb-3.
As Defendants are “unable to . . . assert an argument for dismissal,” the Court cannot dismiss this
claim given that “every reasonable intendment will
be made to sustain a complaint against a motion to
dismiss for failure to state a claim.” Owsley v. Idaho
Indus. Comm’n, 141 Idaho 129, 133, 106 P.3d 455,
459 (2005).

41a
3) I.C. 73-122 is discriminatory as it allows
for individuals to use alternative documentation to apply for licenses; therefore the
SSN is not the least restrictive means to further the state’s alleged compelling interest.
Defendants properly construe this only as part of
Plaintiff’s Free Exercise Clause claim1 and properly
responds that the rational basis test applies. Defendants argue that because the rational basis test applies, the Court does not need to decide whether
there is a less restrictive means to achieve a compelling state interest. Defendants cite Miller v. Reed,
176 F.3d 1202, 1206 (9th Cir. 1999) for this proposition:
In Employment Division v. Smith, 494 U.S.
872, 110 S. Ct. 1595, 108 L. Ed. 2d 876 (1990),
the Court analyzed a free exercise of religion
claim under a rational basis test. Under this
test, a rationally based, neutral law of general
applicability does not violate the right to free
exercise of religion even though the law incidentally burdens a particular religious belief or
practice. Id. at 879, 110 S. Ct. 1595; see also
Church of the Luhtmi Babalu Aye, Inc. v. City
of Hialeah, 508 U.S. 520, 531, 113 S. Ct. 2217,
124 L. Ed. 2d 472 (1993) (citing Smith, 494
U.S. at 879, 110 S. Ct. 1595). Applying Smith’s
rational basis test to the present case, we conclude that Miller’s free exercise claim fails.

Because RFRA was held unconstitutional as applied against
state laws as a usurpation of regulatory authority properly belonging to the states in Boerne, and because Plaintiff is challenging a state law here, this cannot state a RFRA claim.
1

42a
Defendants are correct that neutral laws of general applicability are examined under the rational
basis test for Free Exercise Clause claims, as stated
above in Miller.
I.C. § 73-122 is a neutral law of general applicability which applies to anyone applying for a professional license, and requires them to list their social security number if they have one, and allows those without social security numbers to provide alternative
identification:
73-122. SOCIAL SECURITY NUMBER.
(l) The social security number of an applicant shall be recorded on any application for a
professional, occupational or recreational license.
(2) The requirement that an applicant provide a social security number shall apply only
to applicants who have been assigned a social
security number.
(3) An applicant who has not been assigned
a social security number shall:
(a) Present written verification from
the social security administration that
the applicant has not been assigned a
social security number; and
(b) Submit a birth certificate, passport or other documentary evidence issued by an entity other than a state or
the United States; and
(c) Submit such proof as the department may require that the applicant is
lawfully present in the United States.

43a
The law is not discriminatory. It applies to those
with and without social security numbers. The same
applies to the Child Support Enforcement Act,
42 U.5.C. 666, because it requires the states to ask
for social security numbers on occupational licenses
to aid in collecting child support. It applies to all
states and all occupational licenses.
Bowen v. Roy, 476 U.S. 693 (1986 at708,
and cited and discussed in Leahy v. D.C.,
833 F.2d 1046 (1987). The State of Idaho
even admits to the inequity in Federal
Mandate Review dated Jan. 19, 2005 and
previously submitted to the Court.
The Court is unsure what this means. However,
Plaintiff sets forth a RFRA claim against 42 U.S.C.
666 which Defendants fail to address.
Plaintiff makes other statements in his Second
Amended Complaint regarding the free exercise of
religion:
Idaho code (I.C. 5a-5210(a) requirement to
provide a SSN in order to exercise the freedom
to contract violates plaintiffs First Amendment
right to the Free Exercise of Religion (FER)
clause of the U.S. Constitution . . .
The state of Idaho in “Lewis” admitted that the
requirement of an SSN in order to receive a
driver’s license did indeed burden Lewis’ [sic]
religious beliefs under I.C. 73-402, but that
State law was allegedly pre-empted by federal
law (42 U.S.C. 666) law to require an individual’s SSN even over a religious objection. This
allegation fails for the following reasons . . .

44a
Plaintiff’s second paragraph above asks the Court
to overturn an Idaho Supreme Court case, which is
beyond this Court’s authority. Plaintiff’s first paragraph above is foreclosed by Miller v. Reed, where the
9th Circuit Court of Appeals applied the rational basis
test to a facially neutral California law of general applicability which required the plaintiff to submit a
social security number.
In Employment Division v. Smith, 494 U.S.
872, 110 S. Ct. 1595, 108 L. Ed. 2d 876
(1990), the Court analyzed a free exercise
of religion claim under a rational basis
test Under this test, a rationally based,
neutral law of general applicability does
not violate the right to free exercise of religion even though the law incidentally
burdens a particular religious belief or
practice. Id. at 879, 110 S. Ct. 1595; see also
Church of the Lukumi Babalu Aye, Inc. v. City
of Hialeah, 508 U.S. 520, 531, 113 S. Ct. 2217,
124 L. Ed. 2d 472 (1993) (citing Smith, 494
U.S. at 879, 110 S. Ct. 1595). Applying Smith’s
rational basis test to the present case, we conclude that Miller’s free exercise claim fails.
In Smith, the Supreme Court held: “[T]he right
of free exercise does not relieve an individual
of the obligation to comply with a valid and
neutral law of general applicability on the
ground that the law proscribes (or prescribes)
conduct that his religion prescribes (or proscribes).” 494 U.S. at 879, 110 S. Ct. 1595 (internal quotations and citations omitted). The
Court explained: “The government’s ability to
enforce generally applicable prohibitions of so-

45a
cially harmful conduct, like its ability to carry
out other aspects of public policy, ‘cannot depend on measuring the effects of a governmental action on a religious objector’s spiritual development.’” Id. at 885, 110 S. Ct. 1595 (quoting Lyng v. Northwest Indian Cemetery Protective Ass’n, 485 U.S. 439, 451, 108 S. Ct. 1319,
99 L. Ed. 2d 534 (1988).
Miller concedes that California may regulate drivers’ licenses and that all applicants for drivers’ licenses are required to
provide their social security numbers. See
Nowlin v. Department of Motor Vehicles, 53
Cal. App. 4th 1529, 62 Cal. Rptr. 2d 409, 41214 (1997). He does not deny that section 1653.5
is facially neutral, nor does he allege that section 1653.5 has the object of burdening religion
or has more than an incidental effect on religious practices or beliefs. Finally, he does not
deny that section 1653.5 is rationally related to
California’s legitimate interests in locating the
whereabouts of errant parents for purposes of
carrying out child support programs, collecting
tax obligations, and collecting amounts overdue and unpaid for fines, penalties, assessments, bail, and vehicle parking penalties. See
id. at 415; Lauderback, 41 Cal. Rptr. 2d at 43639.
We conclude that California Vehicle Code
§ 1653.5 is a valid and neutral law of general
applicability. Under Smith, the DMV’s enforcement of it does not violate Miller’s right to
the free exercise of religion. Cf. Bowen v. Roy,
476 U.S. 693, 701-12, 106 S. Ct. 2147, 90 L. Ed.

46a
2d 735 (1986) (Burger, C.J., plurality) (foreshadowing the Smith analysis in rejecting a
free exercise challenge to the requirement that
applicants for a federal welfare program provide social security numbers).
Miller v. Reed, l76 F.3d 1202, 1206-07 (9th Cir. 1999)
(emphasis added) [sic].
“[I]f prohibiting the exercise of religion . . . is . . .
merely the incidental effect of a generally applicable
and otherwise valid provision, the First Amendment
has not been offended.” Employment Div., Dep’t of
Human Res. of Oregon v. Smith, 494 U.S. 872, 892,
110 S. Ct. 1595, 1607, 108 L. Ed. 2d 876 (1990), overturned due to legislative action (Nov. 16, 1993) (however, this case was overturned by RFRA, and RFRA
is inapplicable as applied against state law, and
therefore this case still applies to challenges to state
law). “[T]he right of free exercise does not relieve an
individual of the obligation to comply with a valid
and neutral law of general applicability on the
ground that the law proscribes (or prescribes) conduct that his religion prescribes (or proscribes).”
State v. Fluewelling, 150 Idaho 576, 579, 249 P.3d
375, 378 (2011) (internal quotations omitted, citing
Employment Div., Dep’t of Human Res. of Oregon v.
Smith). “When the exercise of religion has been burdened in an incidental way by a law of general application, it does not follow that the persons affected
have been burdened any more than other citizens, let
alone burdened because of their religious beliefs.”
City of Boerne v. Flores, 521 U.S. 507, 535, 117 S. Ct.
2157, 2171, 138 L. Ed. 2d 624 (1997).
Here, I.C. § 54-5210’s requirement of providing
social security numbers on contractor’s license appli-

47a
cations is a facially neutral law of general applicability. It does not mention religion and applies to any
person applying for an Idaho contractor’s license. The
effect on the Plaintiffs exercise of his religion is only
incidental to collecting his social security number and
his exercise of religion is not substantially burdened
merely because he must submit his social security
number on a contractor’s license application. Defendants are correct that Plaintiffs free exercise claim is
precluded by Miller v. Reed, as well as Employment
Division v. Smith.
Plaintiff applies the incorrect level of scrutiny to
his free exercise claim. Plaintiff is applying strict
scrutiny in an area of law where rational basis scrutiny is applied. Plaintiff fails to set forth a free exercise claim. Plaintiff does state a RFRA claim.
Conclusion
For the reasons stated above, Defendants’ Motion
to Dismiss is granted in part and denied in part.
Dated July 3, 2017.
/s/
District Judge Lansing Haynes
CERTIFICATE OF SERVICE
I hereby certify that on 5th day of July, 2017 a
true and correct copy of the foregoing was mailed,
postage prepaid, faxes or sent by interoffice mail to:
George Ricks
13825 N. Lauren Loop
Rathdrum, Idaho
83858

Leslie Hayes
P.O. Box 83720
#601
Boise, Idaho
83720-0010

48a
Fax: (208) 854-8073
By: /s/
Susan McCoy
Deputy Clerk

49a
Description:

Date:
Location:

CV 2016-5927 George Ricks vs State
of Idaho Contractors Board
20170608 Motion to Dismiss
Judge Haynes
Clerk Suzi Sverdsten
Court Reporter Val Nunemacher
/s/ Suzi Sverdsten
6/8/2017
1K-CRT9

Time
Speaker
03:52:25 PM J
03:54:03 PM DA

03:54:42 PM Plaintiff

03:57:10 PM J
04:01:54 PM J

Note
Plaintiff is present DALeslie Hayes is appearing telephonically
Brief was submitted.
Whether the Religious
Freedom
Registration
Act can apply, it doesn’t
apply to hold state law
unconstitutional.
No police power to require an SSN. Federal
law applies to federal
questions. Layhi v. SCA,
Mr Layhi was successful
Recess.
Back on the record. Will
rule today. Court is governed by that the Court
must make every reasonable intendment to sustain the Complaint. The
argument is 42 USC

50a
Time

Speaker

04:05:00 PM J

04:06:49 PM End

Note
2000 applies to all Federal Law unless states it
doesn’t apply. The child
support act is exempt.
RFRA is unconstitutional as applied to solely
state statute actions.
42 USC 666 is intertwined with a Federal
statute. Mr. Ricks is
challenging the State’s
statute requiring him
42 USC 666. The religious freedom registration act cannot be viewed
an unconstitutional.
The Court denies the
State’s Third Motion to
Dismiss. The Court will
issue its own order. In
that order I will issue an
order addressing the
First Amendment issue.

51a
Description:

Date:
Location:

CV 2016-5927 George Ricks vs State
of Idaho Contractors Board, et al
Judge Haynes
Court Reporter Val Nunemacher
Clerk Tiffany Burton
/s/ Tiffany Burton
5/1/2017
1K-CRT9

Time
Speaker
03:06:37 PM Judge
Haynes
03:08:41 PM J
03:08:54 PM Ms.
Hayes

Note
Calls Case; Mr. Ricks
present pro se; Ms.
Hayes present telephonically for DF
Court has read documents.
Third motion to dismiss.
PL desired to obtain a
contractor’s license, did
not provide SSN due to
religious beliefs. Today
we are talking about the
second amended complaint. Parities appear to
disagree over standard
that should be applied by
the court. Reviews case
law. There is no required
compliance or criminal
sanction. Counsel did not
find any case law where
a SSN was held based on
a religious. Ask the court

52a
Time

Speaker

03:12:17 PM Mr. Ricks

03:14:41 PM J

03:15:17 PM Mr. Ricks
03:15:27 PM J

03:16:39 PM Mr. Ricks

Note
dismiss this matter in its
entirety.
The requirement is neither neutral, there is an
exception. There are
those that don’t need a
SSN in order to contract.
Believe the Def’s are
showing a hostility toward religion. A SSN has
no rational basis in that
purpose. If someone was
to put a claim against me
they would use a registration number, not a
SSN. State of Idaho cannot use my social as far
as contracting goes. No
rational basis for tracking or any use being a
contractor.
Position of the State,
only cause of action is regarding free exercise of
religion.
In connection of the liberty to contract.
The court has already
ruled on that, ruled
against you. Separate
cause of action? Reviews.
I mentioned in my memorandum, support of the
1st amendment.

53a
Time
Speaker
03:17:07 PM Ms.
Hayes

03:19:07 PM J

03:20:10 PM Mr. Ricks
03:20:22 PM J

03:20:46 PM Ms.
Hayes
03:21:14 PM J

Note
Still unclear on the separate cause of actions.
Court cited to the free exercise of religion. There
is nothing I saw in the
Bowen decision that requires the state to have a
religious exception. By
tracking
contractors
based on SSN, it’s intuitive it provides the state
with a tracking mechanism absent a state created number.
Your cause of action is a
little hard to follow. Important to get paired
down exactly what you
are alleging.
Also a claim; 2 causes of
actions.
Because of that, will give
the DF to give more time
to brief the issue of the
riffraff claim.
Understand.
There will be further
briefing work done on
this. DF will contact
clerk to get a hearing
date and will get your response, then we will have
a hearing date regarding

54a
Time

Speaker

03:22:14 PM End

Note
that cause of action. Had
to get the issues narrowed down before I can
rule on it.

55a
Description:

Date:
Location:

CV 2016-5927 George Ricks vs State
of Idaho 20170202
Motion to Reconsider
Judge Haynes
Clerk Suzi Sverdsten
/s/ Suzi Sverdsten
Court Reporter Val Nunemacher
2/2/2017
1K-CRT9

Time
Speaker
02:08:32 PM J

02:41:06 PM J
02:41:14 PM Plt
02:41:48 PM DA
02:41:48 PM J

Note
Plt-George Ricks is appearing in person. DALeslie Haynes is appearing telephonically
Court has read the submissions.
I don’t have anything
further to add.
I rest on my briefing as
well.
The standard is the same
standard the Court had
at the time of the Motion
to Dismiss. Issue of
whether Plaintiff was
timely served with Defendant’s Reply Brief,
this is not a basis for reconsideration. Issue of
the Free Exercise Claim,
in a generous reading to
Count I there is a reference to a Free Exercise

56a
Time

Speaker

02:48:53 PM J

Note
Claim, that claim is significantly
intermixed
with other claims including damages. Difficult to
see as a stand along
claim. The issue that the
Court has to determine is
whether Plt’s Complaint
that did have 1 facet of a
Free Exercise Claim did
it put the State on notice?
I don’t think it was such
that it was properly included. The failure to address what Plt says is a
free exercise religion was
not clearly before the
Court at the time of the
Motion to Dismiss. The
3rd issue, the Federal
Rifra Act and the Bowen
case, no error of law or no
new law or new facts are
brought to the Court’s attention. The 3rd arm is
an insufficient one.
Rule 115A allows amendment of Complaint once
and that has already
happened. Brought before the Court as permissive. Court should not
grant if it appears to be
futile. Court and DA

57a
Time

Speaker

02:51:30 PM DA
02:52:38 PM Plt
02:52:51 PM J

02:55:30 PM End

Note
would need to see what
would that Complaint
look like. Propose to allow Plaintiff to submit
proposed Amended Complaint and then have a
hearing whether to allow.
I would like some timelines.
I think I could have it by
the end of next week.
Close of the day 2/10/17
to get a draft of a Proposed 2nd Amended
Complaint and will allow
you to notice up a hearing. Hearing should take
place after 2/24.

58a
Description:

Date:
Location:

CV 2016-5927 George Ricks vs State
of Idaho Contractors Board, et al
20170105
Motion to Dismiss
Judge Haynes
Clerk Suzi Sverdsten
/s/ Suzi Sverdsten
Court Reporter Val Nunemacher
1/5/2017
1K-COURTROOM9

Time
Speaker
03:52:00 PM J
03:53:59 PM J
03:54:11 PM DA
03:55:01 PM J
03:55:10 PM DA

Note
Plaintiff is present. DALeslie Hayes is appearing telephonically
Def’s 2nd 12(b)(6) Motion
to Dismiss
I didn’t receive Plaintiff’s
opposition to my 2nd motion.
The Court doesn’t see
one.
Briefing addressed what
the Court didn't find n
the 1st Motion to Dismiss
Separation of powers,
ask Plaintiff to elaborate
on that. No fundamental
right to contract Statute
included in the Statement of Purpose There is
clear intent be the legislature to address public

59a
Time

Speaker

03:58:32 PM Plt

04:00:52 PM DA

04:01:28 PM J

Note
concern. It does not Violate Plaintiffs right to
contract.
Applicants
shall provide their social
security number. Equal
protection clause reviewed Doesn't violate
the equal protection
clause.
Leave the separation of
Power to the court's discretion. As to the void for
vagueness, I can see that
that isn't the right thing.
Mostly boils back down
to the social security
number. Don't know
what regulatory purpose
it serves. Under the
equal protection clause, I
don't give my SS#; I give
my permit number.
What Plaintiff is asking
the Court to do would violation the separation of
powers.
Court will rule today. License was denied for failure to give SS#. Plt
rought the suit before
this Court. This Court
ruled that the Lewis case
did decided the religious
freedom issue, that they

60a
Time

Speaker

04:05:53 PM J

Note
were not violated. Court
upheld the 1993 claim
that it hadn’t been addressed. Court found the
Defendant didn’t address
the constitutionality arguments.
Area #1, Plt concedes,
Court finds with concession. Item #2, Court finds
the Contractor’s Registration Act is not discriminatory. The Defendant has a rational basis
for protecting our community from a class of
unscrupulous
contractors. 3rd issue, Court
finds it doesn’t violate
any separation of powers. Idaho legislature
vested authority to the
ICB and put in place procedures that the board
my administer the duties
given [sic]. Freedom to
Contract issue, it is not a
fundamental right. Refusal not to provide SS#,
party doesn’t get a contractor’s license. Plaintiff’s convictions are not
supported. Plaintiff’s 2nd
Motion to Dismiss is

61a
Time

Speaker

04:16:31 PM End

Note
granted. 1/25/17 Status
Conference hearing is vacated.

62a
STATE OF IDAHO
COUNTY OF KOOTENAI
FILED: 2016 NOV. 15
Clerk District Court
/s/___________________
IN THE DISTRICT COURT OF THE
FIRST JUDICIAL DISTRICT OF
THE STATE OF IDAHO IN AND FOR THE
COUNTY OF KOOTENAI
GEORGE Q. RICKS,
Plaintiff,
v.
STATE OF IDAHO
CONTRACTORS
BOARD, IDAHO
BOARD OF
OCCUPATIONAL
LICENSES,
LAWRENCE WASDEN,
ATTORNEY GENERAL,
Defendants.

Case No. CV 16-5927
MEMORANDUM DECISION AND
ORDER GRANTING
IN PART AND
DENYING IN PART
DEFENDANT’S
MOTION TO DISMISS

I. BACKGROUND AND PROCEDURAL HISTORY
Plaintiff has a religious objection to providing his
social security number. Plaintiff applied for an Individual Contractor Registration from the Idaho Bureau of Licenses. The application required Plaintiff to
disclose his social security number. Plaintiff was told
on June 19, 2014 that in order to process his application, he would need to provide his social security number. Plaintiff refused to provide his social security
number and instead provided an affidavit expressing

63a
his religious objection. Plaintiff's application was denied on August 12, 2014.
On May 30, 2015, Plaintiff filed a Notice of Tort
Claim. On August 11, 2016, Plaintiff filed this suit.
The suit seeks: l) lost earnings as compensatory damages pursuant to the Idaho Free Exercise of Religion
Act, specifically l.c. 73-402(4); 2) lost earnings as compensatory damages pursuant to 42 U.S.C. 1983; and
3) the Court to declare Idaho Contractor Registration
Act unconstitutional based on violation of his fundamental rights 1 , vagueness, equal protection, and a
separation of powers argument.
Defendant filed a 12(b)(6) Motion to Dismiss, arguing: I) Defendants are exempt from liability under
The Court assumes Plaintiff meant the fundamental rights to
freedom of religion and freedom of contract, although freedom of
contract is not a fundamental right and subject to rational basis
review:
1

What is this freedom? The Constitution does not speak
of freedom of contract. It speaks of liberty and prohibits
the deprivation of liberty without due process of law. In
prohibiting that deprivation, the Constitution does not
recognize an absolute and uncontrollable liberty. Liberty
in each of its phases has its history and connotation. But
the liberty safeguarded is liberty in a social organization
which requires the protection of law against the evils
which menace the health, safety, morals, and welfare of
the people. Liberty under the Constitution is thus necessarily subject to the restraints of due process, and regulation which is reasonable in relation to its subject and
is adopted in the interests of the community is due process.
W. Coast Hotel co. v. Parrish, 300 U.S. 379, 391, 57 S. Ct. 578,
581-82, 81 L. Ed. 703 (1937). The portion of Hale v. Henkel, 201
U.S. 43, 74, 26 S. Ct. 370, 379, 50 L. Ed. 652 (1906) cited by
Plaintiff is dicta.

64a
the Idaho Tort Claims Act because they were acting
within the course and scope of their employment without malice or criminal intent; 2) Plaintiff did not
timely file his Notice of Tort Claim; 3) Plaintiffs 1983
claim is barred by the statute of limitations; and 4)
that the issue of whether requiring a plaintiff to submit his social security number violates his religious
freedoms was already decided in Lewis v. Department
of Transportation, 143 Idaho 418 (2006).
II. STANDARD OF REVIEW
When ruling on a 12(b)(6) motion to dismiss, “ the
non-moving party is entitled to have all inferences
from the record viewed in his favor . . . A 12(b)(6) motion looks only at the pleadings to determine whether
a claim for relief has been stated.” Young v. City of
Ketchum, 137 Idaho 102, 104, 44 P.3d 1157, 1159
(2002). “ If, on a motion under Rule 12(b)(6) or 12(c),
matters outside the pleadings are presented to and
not excluded by the court, the motion must be treated
as one for summary judgment under Rule 56.”
I.R.C.P. 12(d). “[E]very reasonable intendment will be
made to sustain a complaint against a motion to dismiss for failure to state a claim.” Owsley v. Idaho Indus. Comm'n, 141 Idaho 129, 133, 106 P.3d 455, 459
(2005).
The standard for reviewing a dismissal for failure to state a cause of action pursuant to
I.R.C.P. 12(b)(6) is the same as the standard
for reviewing a grant of summary judgment.
The grant of a 12(b)(6) motion will be affirmed
where there are no genuine issues of material
fact and the case can be decided as a matter of
law.

65a
Coghlan v. Beta Theta Pi Fraternity, 133 Idaho 388,
398, 987 P.2d 300, 310 (1999) (internal citations omitted).
III. DEFENDANTS ARE NOT LIABLE UNDER
THE IDAHO TORT CLAIMS ACT
I.C.§ 6-904 states in relevant part:
A governmental entity and its employees while
acting within the course and scope of their employment and without malice or criminal intent
shall not be liable for any claim which:
1. Arises out of any act or omission of an
employee of the governmental entity exercising ordinary care, in reliance upon
or the execution or performance of a statutory or regulatory function, whether or
not the statute or regulation be valid, or
based upon the exercise or performance
or the failure to exercise or perform a
discretionary function or duty on the
part of a governmental entity or employee thereof, whether or not the discretion be abused.
I.C. § 54-5210 states in relevant part:
APPLICATION FOR REGISTRATION. (1) An
applicant for registration as a contractor shall
submit an application under oath upon a form
to be prescribed by the board and which shall
include the following information pertaining to
the applicant:
(a) Social security number for natural persons or employer tax identification number for other persons;

66a
Here, Defendants were acting in the course and
scope of their employment of evaluating license applications2 and relied on their performance of their statutory or regulatory function when they enforced the
clear requirement of I.C. § 54-5210 for an applicant to
provide his social security number. Additionally,
Plaintiff has not shown that the Defendants acted
with any malice or criminal intent. Thus, Defendants
are not liable pursuant to I.C. § 6-904.
IV.THE CAUSE OF ACTION ACCRUED WHEN
THE APPLICATION WAS DENIED
Defendants argue the cause of action accrued June
19, 2014 when Plaintiff was told that in order to process his application, he would need to provide his social security number. The Court disagrees.
“[U]nder Idaho law, a cause of action generally accrues, and the statute of limitation begins to run,
when a party may maintain a lawsuit against another.” W. Corp. v. Vanek, 144 Idaho 150, 151, 158
P.3d 313, 314 (Ct. App. 2006). However, a lawsuit cannot be maintained until the claim is ripe. "The traditional ripeness doctrine requires a petitioner or plaintiff to prove l) that the case presents definite and concrete issues, 2) that a real and substantial controversy
exists, and 3) that there is a present need for adjudication.” Noh v. Cenarrusa, 137 Idaho 798, 801, 53
I.C. §§ 54-5206 and 5207 authorize the Idaho Contractor Board to administer I.C. § 54-5200 et seq. and
allows the Board to “[a]ccept or reject applications for
registration . . . subject to the provisions of this chapter,” delegate ministerial functions to the IBOL and
contract with IBOL to provide administrative services.
2

67a
P.3d 1217, 1220 (2002). “A justiciable controversy is
thus distinguished from a difference or dispute of a
hypothetical or abstract character.” Id. at 800, 1219.
Here, the claim was not ripe until the application
was actually denied. Before then, when Defendant
told Plaintiff of the statutory requirement for providing his social security number on his application but
Plaintiff had not actually been denied a contractor's
license, the dispute was hypothetical and therefore
not ripe. Plaintiff is suing because he was ultimately
denied a license because he did not disclose his social
security number, not because he was told he needed
to disclose his social security number on the application in order to obtain that license. When Plaintiff was
told he would need to provide his social security number before his application would be processed, his response was to submit an affidavit setting forth his religious objection to doing so. However, it appears Defendants “processed” Plaintiffs application because
the application was denied on August 12, 2014. Plaintiff could not sue for denial of a license when his license application was still pending; therefore, the
claim was not ripe until the application was denied,
the cause of action accrued when the application was
denied, and the statute of limitations began running
when the application was denied.
A. Notice of Tort Claim was not Timely
A Notice of Tort Claim must be “filed with the secretary of state within one hundred eighty (180) days
from the date the claim arose or reasonably should
have been discovered, whichever is later.” I.C. § 6905. Here, the claim arose and was ripe on the day the
application was denied, August 12, 2014. 180 days
from then is February 8, 2015, but Plaintiff did not

68a
file his Notice of Tort Claim until May 30, 2015. Thus,
Plaintiffs Notice of Tort Claim was not timely. “Compliance with the Idaho Tort Claims Act's notice requirement is a mandatory condition precedent to
bringing suit, the failure of which is fatal to a claim,
no matter how legitimate.” McQui11en v. City of Ammon, 113 Idaho 719, 722, 747 P.2d 741, 744 (1987).
Because Plaintiff did not timely file his Notice of Tort
Claim, his tort claim cause of action must be dismissed.
B. Plaintiff’s § 1983 Claim was Timely
Section 1983 does not contain its own statute
of limitations. Without a federal limitations period, the federal courts apply the forum state's
statute of limitations for personal injury actions, along with the forum state's law regarding tolling, including equitable tolling, except
to the extent any of these laws is inconsistent
with federal law.
Butler v. Nat'l Cmty. Renaissance of California, 766
F.3d 1191, 1198 (9th Cir. 2014) (internal quotations
omitted). “In Idaho, a two year statute of limitations
applies to these claims, and the limitations period begins to run on the date the cause of action accrues.”
Gibson v. Ada Cty., Idaho, No. CV-08-203-S-BLW,
2008 WL 4889895, at *2 (D. Idaho Nov. 12, 2008).
“[T]he Ninth Circuit has made clear that a claim accrues upon awareness of the actual injury . . . and
not when the plaintiff suspects a legal wrong.
Id. (emphasis added). “The notice of claim requirements of l.c. 6—905 [the Idaho Tort Claims Act] are
inapplicable to a cause of action brought under 42
U.S.C. 1983.” Overman v. Klein, 103 Idaho 795, 799,
654 P.2d 888, 892 (1982).

69a
Defendants argue the claim accrued when Plaintiff received notice that the application required his
social security number. However, as stated above, the
actual injury was the denial of the license, not being
told the application required a social security number.
Here, when Defendant told Plaintiff he would need to
include his social security number, Plaintiff instead
submitted an affidavit stating his religious objection.
Several weeks later, Plaintiffs application for the license was denied. Plaintiff could not have awareness
that the license had been denied before it was actually
denied. Especially here, where Plaintiff apparently
believed an affidavit stating his religious objection
might suffice. To conclude Plaintiffs claim accrued
when he received notice that Defendants required his
social security number on the application would be to
conclude that the claim accrued when the plaintiff
suspected a legal wrong, which is the opposite of the
law as stated above in Gibson.
Thus, Plaintiffs cause of action accrued on August
12, 2014, and he filed his suit within the two-year
statute of limitations on August 11, 2016. Plaintiffs
§ 1983 claim survives the Motion to Dismiss based on
Defendants' statute of limitations argument.
V. PLAINTIFF'S 1983 CLAIM CANNOT BE DECIDED AS A MATTER OF LAW
Plaintiffs second claim, the 1983 claim, is based on
an argument that I.C. § 54-5210 conflicts with the federal Privacy Act of 1974 (5 U.S.C. § 552a) and also
violates his right to contract. Defendants seem to
have missed that and their argument is based primarily on Plaintiff's religious objection. Defendants correctly argue that the Privacy Act of 1974, as codified,

70a
applies to disclosures of certain information, not obtaining that information:
(b) Conditions of disclosure--No agency
shall disclose any record which is contained in
a system of records by any means of communication to any person, or to another agency, except pursuant to a written request by, or with
the prior written consent of, the individual to
whom the record pertains . .
5 U.S.C. § 552a(b) (emphasis added).
However, there is more to the Privacy Act of 1974
than just the codified portion. Plaintiff cites to P.L.
93-57933 in support of his argument, but fails to notice the second paragraph below creates an exception
Although never codified, this is still the law. Plaintiff cites
Schwier v. Cox for this proposition:
3

The district court noted that, although section 7 was part
of the Privacy Act that “was passed into law as Public
Law 93—579,” the fact that section 7 “was never codified,
and appears only in the ‘Historical and Statutory Notes’
section of the United States Code,” made section 7 a mere
“historical footnote to the Privacy Act of 1974 [which]
Congress has never reflected any intention of [codifying].” The district court apparently believed that public
laws have less “weight” as laws than taws which have
been codified. The reverse is true: “the Code cannot prevail over the Statutes at Large when the two are inconsistent.” United States v. Welden, 377 U.S. 95, 98 n. 4, 84
S.Ct. 1082, 1085 n. 4, 12 L.Ed.2d 152 (1964) (internal
quotations omitted).
The district court also stated that section 7 was deleted
from the Privacy Act by the Senate Government Operations Committee “before the law was codified into the official code.” The district court quotes Senate Report
1183, but the quote demonstrates that the provision that
was deleted from the Act pertained only to a business

71a
where disclosing a social security number is required
by federal statute, and fails to connect that 42 U.S.C.
§ 666 requires disclosure of social security numbers:
SEC. 7 (A)(1) IT SHALL BE INLAWFUL FOR
ANY FEDERAL, STATE OR LOCAL GOVERNMENT AGENCY TO DENY TO ANY INDIVIDUAL ANY RIGHT, BENEFIT, OR PRIVILEGE PROVIDED BY LAW BECAUSE OF
SUCH NDIVIDUAL'S REFUSAL TO DISCLOSE HIS SOCIAL SECURITY ACCOUNT
NUMBER. //5 USC 552A NOTE.//
(2) THE PROVISIONS OF PARAGRAPH (1)
OF THIS SUBSECTION SHALL NOT APPLY
WITH RESPECT TO—
(A) ANY DISCLOSURE WHICH IS REQUIRED BY FEDERAL STATUTE
(B) THE DISCLOSURE OF A SOCIAL SECURITY NUMBER TO ANY FEDERAL, STATE,
OR LOCAL AGENCY MAINTAINING A SYSTEM OF RECORDS EXISTENCE AND OPERATING BEFORE JANUARY 1, 1975, IF SUCH
DISCLOSURE WAS REQUIRED UNDER
entity’s refusal to enter into a “business transaction or
commercial relationship with an individual because of
[his] refusal to disclose or furnish [his social security]
number.” S.Rep. No. 93—1183 (1974), reprinted in 1974
U.S.C.C.A.N. 6916, 6943. Thus, the court’s conclusion
that section 7 of the Privacy Act had been deleted was
error. The best proof of this is section 7’s presence in the
Statutes at Large. See 88 Stat. at 2194; see also Welden,
377 U.S. at 98 n. 4, 84 S.Ct. at 1085 n. 4. We therefore
conclude that the district court erred in finding that section 7 of the Privacy Act was “a dead letter.”
Schwier v. Cox, 340 F.3d 1284, 1288-89 (11th Cir. 2003).

72a
STATUTE OR REGULATION ADOPTED
PRIOR TO SUCH DATE TO VERIFY THE
IDENTITY OF INDIVIDUAL.
(B) ANY FEDERAL, STATE, OR LOCAL GOVERNMENT AGENCY WHICH REQUESTS
AN INDIVIDUAL TO DISCLOSE HIS SOCIAL SECURITY ACCOUNT NUMBER
SHALL INFORM THAT INDIVIDUAL
WHETHER THAT DISCLOSURE IS MANDATORY OR VOLUNTARY, BY WHAT STATUTORY OR OTHER AUTHORITY SUCH NUMBER IS SOLICITED, AND WHAT USES WILL
BE MADE OF IT.
PL 93-579 (S 3418), PL 93-579, DECEMBER 31, 1974,
88 Stat 1896.
While subsection (B) above is not subject to the exception, it does not protect an individual from having
to disclose their social security number. Rather, it
merely requires the government to include certain information when the government requires disclosure.
Whether or not the government failed to include that
information (which is information not before the
Court) does not bear on the exception requiring disclosure.
Because the exception in (2)(A) above still requires
disclosure of social security numbers when required
by federal statute, and 42 U.S.C. § 666 requires disclosure of social security numbers, there is no conflict
with I.C. § 54-5210(a).
However, Defendants did not address Plaintiffs
second argument contained in his § 1983 claim: that
I.C. §54-5210(a) violates Plaintiffs right to contract.
Thus, the Court will not dismiss Plaintiffs 1983 claim

73a
because Defendant did not address this basis for that
claim.
VI.DEFENDANTS DO NOT ADDRESS MANY
OF THE ARGUMENTS PLAINTIFF MADE
IN COUNT III
Defendants only argued about the first issue
raised by Plaintiff in his first argument: whether
providing a social security number on a state license
application violated the Idaho Free Exercise of Religion Act. Defendants correctly argue this was decided
in Lewis v. Department of Transportation, 143 Idaho
418 (2006), and that Plaintiffs claim should be dismissed on that basis. That is correct to the extent that
is applies to Plaintiffs Complaint, but Plaintiffs
“Count III” is not based solely on religious objection;
it is partially based on an argument that I.C. § 545210 is void for vagueness, that I.C. § 54-5210 violates
the Equal Protection Clause of the U.S. Constitution
and presents a separation of powers problem by
usurping power properly belonging to the judiciary.
Defendants failed to address these arguments in their
Motion, Reply Brief, or during oral argument, and
therefore have not met their burden of proof. For that
reason, the Court will not dismiss Plaintiffs Count III
in its entirety.
Dated Nov. 15, 2016

/s/ Lansing L. Haynes
District Judge
Lansing Haynes

74a
CERTIFICATE OF SERVICE
I hereby certify that on the 15 day of
Nov., 2016, a true and correct copy of the foregoing was mailed, postage prepaid, faxed, or
sent by interoffice mail to:
George Ricks
13825 N. Lauren Loop
Rathdrum, Idaho
83858

Leslie Hayes
P.O. Box 83720
Boise, Idaho 83720-0010
Fax: (208) 854-8073
By: Susan McCoy
Deputy Clerk

75a
Description:

Date:
Location:
Time
03:03:02 PM

03:05:32 PM
03:06:14 PM
03:06:24 PM

CV 2016-5927 George Ricks vs State
of Idaho Contractors Board
20161102
Motion to Dismiss
Clerk Suzi Sverdsten
/s/ Suzi Sverdsten
Court Reporter Val Nunemacher
11/2/2016
1K-COURTROOM9
Speaker Note
J
Plaintiff is present. Appearing
telephonically
DA-Leslie Hayes
DA2-Mori Ellsworth
DA2
Counsel for the Occupational Licensing.
J
The Court has read the
submissions of the parties.
DA
These claims arose because the Plaintiff refused to provide his social
security number. License
was denied. No tort
claims are raised. Failed
to file within the statute
of limitations. His claim
was filed 8/11. Accrued on
6/19. He was put on notice that his application
would not be processed.
As the religious freedom

76a
Time

03:10:06 PM

03:20:25 PM

Speaker Note
claim, Federal law requires social security
number for all professional licenses. No religious exemption. We ask
that this Court dismiss
Plaintiffs claims in entirety.
PA
This is not a tort claim.
Under Idaho Code 73401, reads 73-402. Idaho
allowed a person to waive
based on religious or
moral grounds. IC 5244
should apply 67-52711
read. I couldn't file a petition for review until 8/14.
I did file one, but dismissed for untimely filing. The Federal Claim
would apply under IC
5244. Washington allows
a waiver and at one time
Idaho allowed to obtain
license without SSNB.
Doesn't apply to everyone. Bowen vs. Roy cited.
Idaho Code is the prevailing law in this case.
DA
Idaho
Code
§ 5-244,
doesn’t apply to this case.
Idaho has enacted a law
stating they comply with
the Federal Law. I cited

77a
Time

03:23:20 PM
03:24:17

Speaker Note
the Bowen case in my response, I say nothing indicating it was overruled.
The Privacy Act is more
on the privacy of the
numbers after they are
collected.
J
Court will write a memorandum. Matter is under
advisement.
End

78a
IDAHO STATUTES
TITLE 54
PROFESSIONS, VOCATIONS, AND
BUSINESSES
CHAPTER 52
IDAHO CONTRACTOR REGISTRATION ACT
54-5204. REGISTRATION REQUIRED.
(1) On and after January 1, 2006, it shall be unlawful for any person to engage in the business of, or hold
himself out as, a contractor within this state without
being registered as required in this chapter.
(2) It shall be unlawful for a contractor to engage
any other contractor who is required by this chapter to
be registered as a contractor unless such other contractor furnishes satisfactory proof to the contractor
that he is duly registered under the provisions of this
chapter.
(3) Any person who engages in the business or acts
in the capacity of a contractor, whether or not duly registered, has thereby submitted to the jurisdiction of
the state of Idaho and to the administrative jurisdiction of the Idaho contractors board, and shall be subject to all penalties and remedies available under
Idaho law for any violation of this chapter.

79a
IDAHO STATUTES
TITLE 54
PROFESSIONS, VOCATIONS, AND
BUSINESSES
CHAPTER 52
IDAHO CONTRACTOR REGISTRATION ACT
54-5210. APPLICATION FOR REGISTRATION.
(1) An applicant for registration as a contractor
shall submit an application under oath upon a form to
be prescribed by the board and which shall include the
following information pertaining to the applicant:
(a) Social security number for natural persons
or employer tax identification number for other
persons;
(b) The name and address under which the applicant conducts business;
(c) The name and address of each principal,
member, partner, shareholder, or any other person
claiming an ownership interest in the business entity for which registration is being applied for;
(d) A certificate issued by an insurance company authorized to do business in the state of Idaho
or other satisfactory proof that the applicant has
procured and has in effect worker’s compensation
insurance or a statement by the contractor as to
why such certificate or coverage is not required for
the applicant;
(e) A certificate issued by an insurance company
authorized to do business in the state of Idaho that
the applicant has procured and has in effect a gen-

80a
eral liability policy, including products and completed operations insurance covering the applicant’s construction operations in the sum of not less
than three hundred thousand dollars ($300,000)
single limit. The name of the insurance company,
the insured and policy number shall be made available only to persons or their insurers stating that
they possess a claim against the contractor;
(f) A statement of the type of construction to be
undertaken by the applicant, or such other information as may be required by the board pursuant
to administrative rules adopted by the board; and
(g) A statement that the applicant and each
principal, member, partner, shareholder or any
other person claiming an ownership interest in the
business entity for which registration is being applied for herein has never been denied, surrendered
or had revoked a contractor’s license or registration
privilege in this or any other state or, if a license or
registration privilege has been denied, surrendered
or revoked in this or any other state, an explanation of any such denial, surrender or revocation.
(2) Along with such application, the applicant shall
submit a registration fee as may be set by the board to
cover its administrative and enforcement costs, not to
exceed one hundred fifty dollars ($150) per year.
(3) An application for registration that has been denied by the board shall be considered a contested case
as provided for in chapter 52, title 67, Idaho Code, and
shall be subject to the provisions of that chapter as
well as the administrative rules adopted by the board
governing contested cases.

81a
IDAHO STATUTES
TITLE 73
GENERAL CODE PROVISIONS
CHAPTER 1
CONSTRUCTION OF STATUTES
73-122. SOCIAL SECURITY NUMBER.
(1) The social security number of an applicant
shall be recorded on any application for a professional, occupational or recreational license.
(2) The requirement that an applicant provide a
social security number shall apply only to applicants who have been assigned a social security
number.
(3) An applicant who has not been assigned a social security number shall:
(a) Present written verification from the social
security administration that the applicant has
not been assigned a social security number; and
(b) Submit a birth certificate, passport or other documentary evidence issued by an entity
other than a state or the United States; and
(c) Submit such proof as the department may
require that the applicant is lawfully present in
the United States.

82a
42 U.S.C. § 666(a)(13) provides:
§ 666 Requirement of statutorily prescribed procedures to improve effectiveness of child support enforcement
(a) Types of procedures required
In order to satisfy section 654(20)(A) of this title,
each State must have in effect laws requiring the use
of the following procedures, consistent with this section and with regulations of the Secretary, to increase
the effectiveness of the program which the State administers under this part:
*

*

*

*

(13) Recording of social security numbers in certain family matters
Procedures requiring that the social security
number of—
(A) any applicant for a professional license,
driver’s license, occupational license, recreational license, or marriage license be recorded
on the application;
(B) any individual who is subject to a divorce
decree, support order, or paternity determination or acknowledgment be placed in the records
relating to the matter; and
(C) any individual who has died be placed in
the records relating to the death and be recorded on the death certificate.
For purposes of subparagraph (A), if a State allows
the use of a number other than the social security
number to be used on the face of the document while

83a
the social security number is kept on file at the agency,
the State shall so advise any applicants.

84a
STATE OF IDAHO
COUNTY OF KOOTENAI
FILED:
2017 FEB 10 PM 4:53
CLERK DISTRICT COURT
/S/_____________________
DEPUTY
George Quinn Ricks
13825 N. Lauren Loop
Rathdrum, Idaho 83858
(208) 818-9799
In the District Court of the First
Judicial District of the State of Idaho,
in and for the County of Kootenai
George Q. Ricks,
Petitioner
v.
State of Idaho Contractors
Board
Idaho Board of Occupational Licenses

Case No. CV-16-5927
Proposed Second
Amended Complaint.

Lawrence Wasden Attorney General
Respondents
Comes now the plaintiff and submits this second
amended complaint.
Complaint
The Idaho State Board of Contractors (ICB) acting through the Idaho Bureau of Licensing (IBOL)
acting for the State of Idaho (Idaho) did-unlawfully

85a
violate my freedom to contract, by denying plaintiff’s application for an Individual Contractor Registration, because plaintiff refused to disclose a Social Security Number (SSN) based on a religious objection. Idaho Code (I.C.) 54-5210(a) requirement to
provide a SSN in order to exercise the freedom to
contract violates plaintiff’s First Amendment right
to the Free Exercise of Religion (FER) clause of the
U.S. Constitution. Employment Div. v. Smith, 494
U.S. 872 (1990). Wisconsin v. Yoder, 406 U.S. 205
(1972), Sherbert v. Verner, 374 U.S. 398 (1963),
Hobbie v. Unemployment Appeals Comm’n, 480
U.S. 136.
The State of Idaho in “Lewis” admitted that the
requirement of an SSN in order to receive a driver’s license did indeed burden Lewis’ religious beliefs under I.C. 73-402, but that State law was allegedly preempted by federal law (42 U.S.C. 666)
law to require an individual’s SSN even over a religious objection. This allegation fails for the following reasons.
1) 42 U.S.C. 666 a 13 A applies only in certain
family matters. That being the collection and use
of SSN FOR USE IN CHILD SUPPORT Enforcement. P.L. 105-33 August 5th, 1997-111 629 Section 5536.
2) 42 U.S.C. 2000 bb 1-4 applies to all federal
laws unless the particular federal law specifically
states 42 US 2000 bb 1-4 does not apply. 42 U.S.C.
666 is not exempt.
3) I.C. 73-122 is discriminatory as it allows for
individuals to use alternative documentation to
apply for licenses; therefore the SSN is not the

86a
least restrictive means to further the state’s alleged compelling interest.
Bowen v. Roy, 476 U.S. 693 (1986) at 708, and
cited and discussed in Leahy v. D.C., 833 F.2d 1046
(1987). The State of Idaho even admits to the inequity in Federal Mandate Review dated Jan. 19,
2005 and previously submitted to this court.
Conclusion
I.C. 54-5210(a) violates Plaintiff’s 1st Amend
(FER) and does not comply with federal law and
U.S. Supreme court’s decisions concerning the
“FER”. I.C. 73-122 is discriminatory.
Plaintiff seeks relief in the forms of declaratory
judgment, and also damages under 42 U.S.C. 1981,
1983, 2000e-2(b) in connection with I.C. 6-903(1),
6-910.
Dated this 10th day of February, 2017.
/s/ George Q. Ricks

87a
STATE OF IDAHO
COUNTY OF KOOTENAI
FILED:
2016 AUG 11 PM 4:08
CLERK DISTRICT COURT
/S/_______________________
DEPUTY
Lansing L. Haynes
District Judge
George Quinn Ricks
13825 N. Lauren Loop
Rathdrum, Idaho 83858
(208) 818-9799
In the District Court of the First Judicial
District of the State of Idaho,
in and for the County of Kootenai
George Q. Ricks,
Petitioner
v.
State of Idaho Contractors
Board
Idaho Board of Occupational Licenses

CV 16-5927
Amended Civil Action
for Violation of
Constitutional and
Statutory Rights.

Lawrence Wasden Attorney General
Respondents
Complaint
Comes now the plaintiff and alleges as follows:

88a
Count I
The Idaho State Board of Contractors (ICB) acting through the Idaho Bureau of Licensing (IBOL)
acting for the State of Idaho (Idaho) did-unlawfully
violate my fundamental right to contract, by denying plaintiffs application for an Individual Contractor Registration, because plaintiff refused to disclose a Social Security Number (SSN) based on a religious objection. Idaho Code (I.C.) 54-5210(a) requirement to provide a SSN in order to exercise the
fundamental right to contract is incompatible with
Article 1 Section 4 of the Constitution of the State of
Idaho and I.C. 73-401(2), I.C. 73-402 enacted by the
Idaho legislature in pursuance of Art. 1 Sec. 4 of the
Constitution of the State of Idaho.
On or about the 14th day of June, 2014, plaintiff filed an Application for Individual Contractor
Registration in Idaho with the IBOL, under the
provisions of Title 54, chapter 52, I.C. Plaintiff included supporting documents along with the state
provided form. See Certification of Agency Record
on Appeal (CARA).
On or about June 19th, 2014 plaintiff received a
letter form Maria Brown (Tech, Records Spec. 2) of
the IBOL, stating her office had received and reviewed plaintiff’s application. In order for plaintiff
application to be processed, the following items
were required: 1) Plaintiff’s SSN, per I.C. 54-5210
(a). No other items were requested. No objection or
request was made concerning how plaintiff answered question 14 (felony).
On July 7th, 2014 I sent a fax of an affidavit affirming (amongst other issues) my religious objec-

89a
tions to disclosing an SSN in order to register as a
contractor.
On July 25th, 2014 The IBOL in a letter dated and
signed by Carol Klassen (TRS1) acknowledged receiving my application for Contractor Registration
and supporting documents.
On August 1 2th, 2014 the ICB Acting by and
through the IBOL acting for the State of Idaho denied my application for Contractor Registration
based upon an incomplete application form according to rule 150. According to ICB notes: (A) Felony
question not answered (even though ICB answered
it for me and no requests or challenges were ever
made of me to answer question 14 different than
how I answered it). Therefore plaintiff reasonably
presumed his answer was sufficient based on ICB
silence. (B) SSN not provided. Plaintiff did complete said application form.
On September 1 8 th, 2014 plaintiff filed a petition for Judicial Review.
On October 30th, 2014 plaintiff received Certificate of Agency Record on Appeal. (CARA).
On November 25th, 2014 O.Ellsworth, attorney
for respondent (ICB) filed memorandum in support
of motion to dismiss petition for judicial review
(based on petition was not timely filled.) of
I.C. Title 6 Section 907, Therefore denying plaintiff
administrative relief.
I.C. 73-401(2) “Exercise of religion” means the
ability to act or refusal to act in a manner substantially motivated by a religious belief, whether or

90a
not the exercise is compulsory or central to a larger
system or religious belief.
Plaintiff refused to provide an SSN in a manner
substantially motivated by a religious belief. It is
the plaintiff’s religious belief that the SSN, as it is
now being imposed, is a form of the mark, and in
substance (essence) the number of the 2-horned
beast written of in the Holy Bible, Book of Revelation chapters 13:16-18, 14:9-11, 15:2, 16:2, 19:20,
and 20:4. Chapter 13:16-18 He also forced everyone,
small and great, rich and poor, free and slave, to
receive a mark on his right hand or on his forehead,
so that no one could buy or sell unless he had the
mark, which is the name of the beast or the number
of his name. This calls for wisdom. If anyone has
insight, let him calculate the number of the beast,
for it is man’s number. His number is 666. By
forcing me to disclose an SSN in order for one to
buy my labor or for me to sell my labor, is in essence
the number of the beast and the card is a form of
the mark. (Greek: Charagma, meaning a scratch or
etching. Stamp (as a badge of servitude) Strong’s
concordance of the Bible. Badge, a device or token,
especially of membership in a society or group,
Merriam Webster’s Collegiate Dictionary 11th Edition. The SSA Website dealing with the history of designing SSN “understood that individuals would
need to have a “token” that would provide a record
of the number that had been assigned” to them.
Assign: (L assignare, to mark.) 1: to transfer (property) to another esp. in trust or for the benefit of
creditors.
Right to contract is a fundamental right. The U.S
Supreme Court in Hale v. Henkel, 201 U.S. 43, 74

91a
stated that “the individual may stand upon his
constitutional rights as a citizen, He is entitled to
carry on his private business in his own way. His
power to contract is unlimited. His rights are such
as existed by the law of the land long antecedent to
the organization of the State, and can only be taken
from him by due process of law, and in accordance
with the Constitution.” See also Coppage v. Kansas,
236 U.S. 1, 2.
I.C. 54-5210(a) is incompatible with I.C. 73402(3)(a). Does the State of Idaho consider it essential to further a compelling government interest to
force a citizen to provide an SSN in order to exercise
a fundamental right? Is the SSN “material” in determining whether plaintiff is qualified to register as
a contractor? I.C. 54-5210(a) is incompatible with
I.C. 73-402{3) (b) as it is not the least restrictive
means of furthering a compelling government interest. I.C. 73-122 offers alternative(s) to those who
have not been “assigned” an SSN. (B) IDAPA, Rule
16.03.05 Section 103.03(a) and (b) allows a good
cause exception for failure to apply for an SSN, or
conscientiously opposed to using a national I.D.
number, as does IDAPA 16.04.08 Section 133,
I.C. 49-306(2)(b) 2 and 3. This however provides no
remedies to those with a religious objection, who
were assigned SSN’s as infants, minors or adults,
who have come to believe that the SSN as now being
imposed is the number of the beast. See Leahy v. District of Columbia 833 F.2d 1046 (1987).
According to the House of Representatives,
State of Idaho Federal Mandate Review, at one time
under Idaho law, U.S. citizens were allowed to sign
a waiver based on religious or moral grounds and

92a
were able to obtain a driver’s license, permit or I.D.,
without giving the SSN. Legal maxims and other
quotes from [L]ord Coke: “A right cannot die.” For
such a high estimation is right in the eye of the law,
as the law preserveth it form death and destruction: trodden downe it may be, but never trodden
out.” Section 297B.
In Lewis v. Idaho department of transportation
decided August 17th, 2006, the Idaho Court of Appeals (ICA) concluded that the state is required by
federal law to record the SSN of all drivers’ license
applicants. Under the federal preemption doctrine,
this mandate preempts any state law including
I.C. 73-402.
Plaintiff rebuts the state’s claim that 42 U.S.C.
666(a)(13)(A) pre-empted state law.
42 U.S.C. 666 is not positive law, it is a federal
funding bill entirely voluntary on the part of Idaho to accept or reject, as cited in Pennhurst State
Sch, and Hosp. v. Halderman, 451 U.S. 1,17, 191
S., Ct. 1531, 67 L. Ed. 2d 694 (1981). “The legitimacy
of congress’ power to legislate under the spending
power thus rests on whether the state voluntarily
and knowingly accepts the terms of the contract.”
Can the state of Idaho voluntarily waive its citizen’s constitutional rights? Article 1 Section 4 Idaho Constitution, Guarantee of Religious Liberty.
Plaintiff rebuts the assumption that 42 U.S.C.
666, applies to everyone.
The state in Lewis relies on one sentence to claim
the contract generally applies to everyone, regardless of any child support obligations, “in expounding a statute, we must be not be guided by a single

93a
sentence or member of a sentence, but took to the
provisions of the whole law and to its object and policy’’. Pennhurst v. Halderman, 451 U.S. 1 at 18, citing Philbrook v. Glodgett, 421 U.S. 707, 421 U.S.
713 (1975), quoting U.S. v. Heirs of Boisdore, 8 how.
113, 49 U.S. 122 (1849), and in Philbrook v.
Glodgett 421 U.S. 707 at 714, “It familiar rule that
a thing may be within the letter of the statute and
yet not within the statute, because not within its
spirit nor within the intention of its markers.”
Quoting Church of the Holy Trinity v. U.S., 143
U.S. 457, 143 U.S. 459 (1892).
It is clear and unambiguous that title 42 U.S.C.
Chapter 7, Sub Chapter 4 parts A thru E apply to
grants to states for Aid and Services to Needy Families with Children and for Child-Welfare Services.
42 U.S.C. 654-State plan for child and spousal support. 42 U.S.C. 654(20) provide, to the extent required by section 666 of this title, that the state(A)
shall have in effect all the laws to improve child support enforcement ( CSE) effectiveness which are referred to in that section, and (B) shall implement
the procedures which are prescribed in or pursuant
to such laws. 42 U.S.C. 666-Requirements of statutorily prescribed procedures to improve effectiveness of
child support enforcement.
It is clear that congress’ objective according to
section 666 relate and are germane to those under
CSE obligations, or orders and have nothing to with
the general public. 42 U.S.C. 666(a) (13) Recording of
SSN In CERTAIN FAMILY MATIERS. P.L. 105-33August 5th, 1997-111 State. 629 Section 5536. Collection and use of Social Security Numbers FOR USE
IN CHILD SUPPORT ENFORCEMENT.

94a
Lord Coke ‘ The reason of the law is the life of the
law.” Section 1836. The reason of 42 U.S.C. 666 (a)
13(A) and (a)(16) is for the IV-D agency responsible
for the administration of these prescribed procedures to have the tools (suspension of licenses) to
enforce paternity or child support. These subsections have no life beyond the prescribed procedures
relating to individuals dealing with an IV-D agency.
42 U.S.C. 666 is germane only to persons seeking
the assistance of an IV-D agency. As stated by Justice Scalia in Blessing v. Freestone, 520 U.S. 329 at
349 (1997). As we explained in Pennhurst State
School and Hospital v. Halderman, 451 U.S.1
(1981), such an agreement is “in the nature of a
contract,” id. at 17. The State promises to provide
certain services to private individuals, in exchange
for which the Federal Government promises to give
the State funds. In contract law, when such an arrangement is made (A promises to pay B money, in
exchange for which B promises to provide services
to C), the person who receives the benefit of the exchange promises between the two others (C) is
called a third-party beneficiary. Until relatively recent times, the third-party beneficiary was generally regarded as a stranger to the contract, and could
not sue upon it; that is to say, If in the example
given above, B broke his promise and did not provide services to C, the only person who could enforce the promise in court was the other party to
the contract. Plaintiff is not a party to the contract,
therefore 42 U.S.C. 666 (a) 13(A) does not apply to
plaintiff.
42 U.S.C. 666 (a) 13(A), If generally applied to
everyone, would conflict with the first amendment
of the Constitution of the U.S.A. free exercise

95a
clause. It would also be in conflict with 42 U.S.C.
2000 (bb) 1-4 which preempts 42 U.S.C. 666. In
Leahy v. District of Columbia 833 F.2d 1046 (1987)
Circuit Judge Ruth Bador Ginsburg (U.S. Court of
Appeals, D.C. Circuit) overruled the district court’s
less rigorous standard of scrutiny (“reasonable
means of promoting a legitimate public interest’’) in
dismissing plaintiff John C. Leahy, Jr.’s civil action.
Leahy had been “assigned” an SSN in the mid1960’s, but asserted that in 1978-79 he had come
to believe that “use of his SSN . . . would endanger
his chances of being chosen for life after death.’’
Justice Ginsburg stated “the District has not
demonstrated that requiring a religious object or to
provide his SSN in order to obtain a driver’s license
is the least restrictive means of achieving the concededly vital public safety objective at stake”.
Therefore, the requirement to provide an SSN, in
order to exercise a fundamental right, (contracting), over a religious objection is repugnant to the
“free exercise clause” of the 1st amendment of the
U.S.A Constitution, and incompatible with
42 U.S.C. 2000 (bb) 1-4.
42 U.S.C. 2000 cc-3 (h). Nothing in this chapter
shall be construed to pre-empt State law, or repeal
Federal law, that is equally as protective of religious
exercise, or more protective of religious exercise
than this chapter. Therefore, I.C. 73-401 and 402
are the prevailing law.
Wherefore, the plaintiff requests under remedies provided in I.C. 73-402(4) appropriate compensatory damages for loss of earnings, and all appropriate relief the court may deem just.

96a
Count II
The Idaho State Board of Contractors (ICB) acting through the Idaho Bureau of Licensing (IBOL)
acting for the State of Idaho (Idaho) did unlawfully
violate my fundamental right to contract, by denying plaintiffs.
The Idaho State Board of Contractors (ICB) acting through the Idaho Bureau of Licensing (IBOL)
acting for the State of Idaho (Idaho) did unlawfully
violate my fundamental right to contract, by denying plaintiff’s application for an Individual Contractor Registration, because plaintiff refused to disclose
a Social Security Number (SSN) based on federal
law. (Privacy Act).
State law, I.C. 54-5210(a), conflicts with Federal
law, the Privacy Act of 1974, P.L. 93-579, section 7,
(a) and (b) 88 Stat. 1901 and stands as an obstacle
to the accomplishment and execution of the full
purposes and objectives of congress in that it requires disclosure of an individual’s SSN, in order for
the individual to exercise his fundamental (Const.)
right to contract. Whereas federal law declares it
unlawful to deny any individual any right, benefit,
or privilege provided by law because of such individuals refusal to disclose his SS account number.
Section 7(b) requires any Federal, State, or local
government agency which requests an individual To
disclose his SSN shall inform that individual
Whether that disclosure is mandatory or voluntary,
by what statutory or other authority such number
is solicited, and what uses will be made of it.
Only Congress has the authority to create, issue,
and safeguard or prescribe the uses of SSNs. Indi-

97a
viduals have private right of action under 42 U.S.C.
1983 for deprivation of any constitutionally or
statutory federal right under color of state law. The
Privacy Act clearly confers a legal right on individuals: The right to refuse to disclose his order SSN
without suffering the loss “of any right, benefit, or
privilege provided by law.” 88 Stat. at 2194,
Schwier v. Zox, 11th Cir. U.S.C.A #02-13214, Aug.
11, 2003.
Wherefore, the plaintiff requests under remedies provided for in 42 U.S.C. 1983, appropriate
compensatory damages for loss of earnings, and all
other remedies, punitive or otherwise that the
count deems just.
Count III
I.C. 54 Chap. 52 is unconstitutional. It turns a
fundamental right into a crime and an arbitrary
government permitted activity.
It is void for vagueness as a “police power” of the
State, as there is no clear definition of what constitutes incompetent, dishonest, or unprincipled.
Its wording shines an unfavorable light on contractors in general as if only they are dishonest or
unprincipled and the ones who hire are but ignorant, innocent, victims, thereby violating the
“Equal protection clause” of the 14 Amend. of the
U.S. Const.
It usurps the sphere of the courts (Judiciary)
and grants authority to an arbitrary bureau in regards to contractual disputes.
Dated this 11th day of August, 2016
/s/ George Q. Ricks

98a
STATE OF IDAHO
COUNTY OF KOOTENAI
FILED:
2014 NOV 3 AM 10:05
CLERK DISTRICT COURT
/S/_Sherry Huffman______
DEPUTY
In the District Court of the First Judicial
District of the State of Idaho,
in and for the County of Kootenai
George Quinn Ricks,
Petitioner,
vs.

Case No. CV 14-7034

Certification of Agency
Idaho State Board of Con- Record on Appeal
tractors,
Respondent.
COMES NOW the Idaho State Board of Contractors, by
and through the Bureau of Occupational Licenses,
Tana Cory, Bureau Chief, and hereby submits the
Agency Record on Appeal, pursuant to Idaho Code
§§ 67-5249 and 67-5275. The undersigned hereby certifies that the enclosed documents as listed in the index attached hereto are true and correct copies of the
originals filed or submitted to the agency.
Dated this 30th day of October, 2014.
/s/ Tana Cory
Bureau Chief
Bureau of Occupational Licenses

99a
INDEX OF RECORD ON APPEAL
1. Fax from George Q. Ricks received from Attorney
General's Office date stamped 10/10/2014 from
Attorney General's Office; date stamped
10/15/2014 Bureau of Occupational Licenses with
Summons and Petition for Judicial Review.
2. Fax from George Q. Ricks received by Bureau of
Occupational Licenses on 10/10/2014 with Petition for
Judicial Review and Summons.
3. Fax from George Q Ricks received by Bureau of
Occupational Licenses on 9/15/2014 with Petition
for Judicial Review.
4. Idaho Contractors Board 8/12/2014 Board Meeting
Minutes.
5. 8/14/2014 letter from Carol Klassen to George
Quinn Ricks.
6. 8/12/2014 Board Review Application form for
George Quinn Ricks.
7. 7/25/2014 letter from Carol Klassen to George
Quinn Ricks.
8. 7/7/2014 fax from George Ricks with letter to
Bureau of Occupational Licenses.
9. 6/19/2014 letter from Maria Brown to George
Quinn Ricks.
10. 6/18/2014 Application for an Individual Contractor
Registration for George Quinn Ricks.

100a

101a

102a

103a

104a

105a

106a

107a

108a

109a

